<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                         TUESDAY, MAY 15, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:02 a.m. in room SD-192, Dirksen 
Senate Office Building, Hon. Richard C. Shelby (chairman) 
presiding.
    Present: Senators Shelby, Murkowski, Daines, Moran, Durbin, 
Leahy, Murray, Tester, Udall, Schatz, and Baldwin.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. DR. MARK T. ESPER, SECRETARY


             opening statement of senator richard c. shelby


    Senator Shelby. The committee will come to order.
    I'm pleased to welcome today Secretary Esper and General 
Milley to the committee for an update on Army operations and a 
review of the 2019 budget request.
    The Army is seeking $182.1 billion in its current request, 
which is an increase of about $5 billion over amounts 
appropriated for 2018. With this budget request, the Army will 
continue to build readiness and counter threats posed by near-
peer competitors while modernizing in order to face future 
threats. We, here today, acknowledge the challenging assignment 
that you face to source an increased demand for forces today 
while also modernizing to compete with more technically capable 
adversaries. We appreciate your service, and we look forward to 
working with you during the appropriation process to meet the 
needs of the Army in today's complex strategic environment.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    Good morning, the Subcommittee will come to order.
    I am pleased to welcome Secretary Esper and General Milley to the 
committee for an update on Army operations and a review of the fiscal 
year 2019 budget request.
    The Army is seeking $182.1 billion in its current request, which is 
an increase of about $5 billion over amounts appropriated for fiscal 
year 2018. With this budget request, the Army will continue to build 
readiness and counter threats posed by near-peer competitors while 
modernizing in order to face future threats.
    We acknowledge the challenging assignment you face to source an 
increasing demand for forces today while also modernizing to compete 
with more technically capable adversaries.
    Gentlemen, we appreciate your service and look forward to working 
with you during the appropriations process to meet the needs of the 
Army in today's complex strategic environment.
    Now I turn to the Vice Chairman, Senator Durbin, for his opening 
remarks. Thank you.
    Senator Shelby. I will now turn to Senator Durbin, the Vice 
Chairman.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Thanks, Mr. Chairman. I am pleased to join 
you in welcoming the Secretary of the Army, Mark Esper, Chief 
of Staff of the Army, General Mark Milley, into our hearing to 
review the Army's budget request for the fiscal year 2019.
    If you name a hotspot in the world, odds are strong that 
the women and men of the United States Army are there. Our 
soldiers comprise the majority of the 15,000 troops deployed in 
Afghanistan, the 28,000 serving in South Korea, the 7,000 in 
Iraq and Syria, and 60,000 stationed in Europe. These soldiers 
live every day so close to danger, and we owe them more than 
gratitude. Our troops need the tools and training to do their 
job, support for their families, who are often far away, and a 
commitment to their well-being after deployment. Many times, 
the key to following through on these promises start with 
responsible management of the funds we devote to our national 
defense.
    We are now operating under a rare 2-year budget deal. And 
I'll emphasize publicly what I've emphasized privately to our 
witnesses, and that's how important it is that the Army spend 
these budget increases wisely. Between 2017 and 2018, funding 
for the Army increased by 17 percent. Any institution would 
struggle with responsible management of such a large funding 
increase in such a short period of time.
    Secretary Esper and General Milley, I know you agree, 
because you've told me, that losing funds to waste is a loss 
for our troops and the American taxpayer. The question is, How 
are you--how are we--going to prevent it? We must remember that 
this budget deal will be over before we know it. And the fiscal 
year 2020 defense budget faces a dramatic increase, decrease, 
certainly uncertainty. We just don't know. So, after 2 years of 
dramatic increase, we're not certain what the third year will 
look like at all. Simply maintaining the current level of 
budget defense is not a guarantee.
    In addition to the threat of an unstable world and the 
challenge of being good stewards of public funds, the Army is 
challenged to modernize faster and faster. The Army has 
initiated several new concepts, such as the Army Futures 
Command, to help meet these challenges. I look forward to 
hearing how these concepts are truly transformational. We have 
many other issues to discuss. I look forward to the questions.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Leahy, do you have an opening 
statement?
    Senator Leahy. No, thank you, Mr. Chairman. I'll have 
questions later.
    Senator Shelby. Thank you.
    We'll now turn to The Honorable Mark Esper, Secretary of 
the Army, and then, after him, General Mark Milley, the Chief 
of Staff of the Army.
    Mr. Secretary, your written testimony--and General, yours, 
too--will be made part of the hearing record in its entirety. 
You proceed as you wish.

              SUMMARY STATEMENT OF HON. DR. MARK T. ESPER

    Secretary Esper. Good. Thank you, Mr. Chairman.
    Chairman Shelby, Ranking Member Durbin, Senator Leahy, and 
other distinguished members of the committee, good morning, and 
thank you for the opportunity to appear before you today.
    Let me say up front that the Army's readiness across its 
formation is improving, and if called upon today, I am 
confident we would prevail in any conflict. This is due, in 
part, to the increased funding Congress provided last year. And 
for this, I would like to say thank you.
    The Army's mission to defend the Nation has not changed, 
but the strategic environment has. Following 17 years of 
sustained combat, we now face a future characterized by the 
reemergence of great-power competition and the continued 
challenges posed by rogue states and nonstate actors, making 
the world ever more complex and dangerous.
    To address these challenges, the Army is changing. We have 
a comprehensive plan to ensure our long-term dominance. In 
fact, General Milley and I will soon publish our Army vision 
statement. This vision is fully consistent with the National 
Defense Strategy, and one that we believe will ensure success 
for years to come. We will achieve this vision through focused 
and enduring priorities encompassing several major long-term 
lines of effort. But, a vision alone will not make the Army 
successful. We must have predictable, adequate, sustained, and 
timely funding. Fiscal uncertainty has done a great deal to 
erode our readiness and hamper our ability to modernize.
    While the Army must be ready to deploy, fight, and win 
anytime, anywhere, against any adversary, the National Defense 
Strategy has identified China and Russia as the principal 
competitors against which we must build sufficient capacity and 
capabilities. Both countries are taking a more aggressive role 
on the world stage and either possess or are building advanced 
capabilities that are specifically designed to reverse the 
tactical overmatch we have enjoyed for decades.
    In support of the NDS (National Defense Strategy), the Army 
is increasing our lethality along three focused priorities: 
readiness, modernization, and reform.
    Readiness is the top priority, because only a ready total 
Army--regular Army, Guard, and Reserve--can deter conflict, 
defeat enemies, and enable the joint force to win decisively. 
We are focused--we are refocusing training for our soldiers to 
be more lethal and more resilient on the high-intensity 
battlefield of the future. We are also increasing home-station 
training, getting more repetitions for our formations at the 
company level and below. We are giving training time back to 
commanders by reducing certain self-imposed mandatory training 
requirements not tied to increased lethality and by eliminating 
excessive reporting. We have maximized the number of Combat 
Training Center rotations to 20 per year, four of which are 
dedicated to the Reserve component. These rotations are focused 
on the high-end conflict, replicating near-peer competitor 
capabilities, including increased enemy lethality, degraded 
communications, persistent observation, and a contested 
environment.
    And while the quality, training, and sprit of our soldiers 
are what make the U.S. Army the most ready and lethal ground 
combat force in history, our superiority is enabled by the best 
weapons and equipment that we can provide. As such, our second 
priority is modernization, or future readiness. To ensure our 
soldiers never enter a fair fight, the Army is now increasing 
its investments in modernizing the force. Our modernization 
strategy is focused on one goal: making our soldiers and units 
far more lethal and effective than any other adversary.
    The establishment of the Army Futures Command this summer 
is the best example of our commitment to the future lethality 
of the force. Army Futures Command will address the key 
shortcomings of the current acquisition system, providing unity 
of command, effort, and purpose to the modernization process.
    The Army has said--has also identified its top six 
modernization priorities for the coming years. Each of these 
priorities is detailed in my written statement, and each is the 
purview of a newly established cross-functional team. The 
purpose of these CFTs (Cross-Functional Teams) is to determine 
the requirements of needed capabilities to ensure all 
stakeholders are at the table from day one and to focus Army 
resources on accelerated experimentation, prototyping, and 
fielding. In order to ensure battlefield success, our doctrine 
must reflect the threat environment we face and remain apace 
with our other efforts to modernize our equipment.
    Our third priority is reform, freeing up time, money, and 
manpower to enhance readiness, accelerate modernization, and 
ensure the efficient use of resources provided to us by the 
American people. Our reform efforts, particularly within the 
acquisition system, are long overdue. While Futures Command is 
probably the boldest reform we are pursuing, there are other 
acquisition reform initiatives that we are taking. Some of 
these reforms include reinvigorating the Army Requirements 
Oversight Council, moving major defense acquisition programs 
back to the service, and using other transactional authorities 
to accelerate fielding in limited situations. Another essential 
reform effort is development of a modernized personnel system 
based on the principals and practices of talent management that 
are found in the private sector, a system much more open, 
flexible, and dynamic so that we can better attract, develop, 
and retain the best and brightest our Nation has to offer.
    A ready and modernized Army is critical to defend the 
Nation, but we must not overlook what makes us remarkable. For 
this, I have outlined three enduring priorities. First, taking 
care of our soldiers, civilians, and their families. Second, a 
service-wide recommitment to the Army's values, especially by 
leaders, to treat everyone with dignity and respect. And 
finally, strengthening our alliances and partnerships by 
building stronger ties through a number of initiatives. I look 
forward to discussing these with you, as time permits.
    With that, let me thank you again for this committee's 
continued support of the Army, and specifically the defense 
appropriations and funding increases requested in the fiscal 
year 2018 and fiscal year 2019 budgets. I look forward to your 
questions and appreciate the opportunity to discuss these 
important matters with you today.
    Thank you.
    Senator Shelby. General Milley.
STATEMENT OF GENERAL MARK A. MILLEY, CHIEF OF STAFF
    General Milley. Thank you, Chairman Shelby and Ranking 
Member Durbin, and thanks also to Vice Chairman Leahy and all 
the distinguished members of the committee, for the opportunity 
to testify this morning.
    I want to start by thanking you and thanking all of 
Congress, and this Appropriations Committee, in particular, for 
the 2018 bill that was passed. And these appropriations will 
continue to increase our current and our future readiness of 
our Army, and positively impact the morale of the force. We 
recognize that, with this significant budget, comes great 
responsibility, and we will work diligently to spend these 
dollars in a responsible manner over the last two quarters of 
the fiscal year.
    Thank you also for the general increases in the defense 
caps over 2018 and 2019. And these increases will support our 
new National Defense Strategy, as propagated by General Mattis, 
or Secretary of Defense Mattis, and advance the Army's 
readiness and lethality while allowing our Army to modernize 
for the future. These increases have stopped a steep, lengthy 
decline. They've stopped the bleeding of the Army. And the Army 
is on the mend. And I can report out to you today that, after 2 
and a half years as the Chief of Staff of the Army, we are in 
significantly better shape than we were just a short time ago, 
and that is through the generosity of this Congress and the 
American people. It's essential that we maintain these 
increases, as returning to BCA (Budget Control Act) caps will 
halt our ability to modernize and will reverse our recent gains 
in readiness, because a demand for a ready, able, and lethal 
Army is not decreasing.
    Today, as noted by Senator Durbin, we have over 180,000 
soldiers supporting combatant commands around the world, 
including ongoing operations in the Middle East, including 
deterring adversaries in Europe, and including deterring 
adversaries in the Asia-Pacific region. The Army roughly fills 
about 50 percent of annual planned demand by any combatant 
command, and about 60 percent of all emergent or unplanned 
demand by combatant commanders. We have increased the number of 
our Combat Training Center rotations, as noted by Secretary 
Esper. We've improved our equipment operational readiness 
rates, and improved the flow of spare parts. We've replenished 
our Army pre-positioned stocks in both Asia and Europe, and we 
have improved our munition stocks around the globe. In short, 
we've significantly improved our manning shortfalls, filled 
holes in overall readiness of our operational and deployable 
units, significantly better than just 24 months ago.
    We have a better Army today, and we have it because of you 
and the American people. However, we cannot be content with 
simply being ready for today's global demands. Instead, we have 
to continue to focus on readiness, both now and in the future. 
The National Defense Strategy calls for us to build a more 
lethal force. We face a long-term competition with China and 
Russia, a serious regional threat from Iran as well as ongoing 
operations against terrorism, and we remain cautiously 
optimistic, but we remain vigilant about the situation with 
North Korea. We know these great-power competitors, both China 
and Russia, have made significant advances in the development 
of advanced weapons technologies and the capabilities of their 
military forces, and I'll be happy to provide a classified 
briefing on those from an Army perspective, if you desire.
    We must maintain our overmatch and increase our lethality 
as an Army on any future battlefield, but doing so will require 
predictable, adequate, sustained, and timely funding. The 
Army's fiscal year 2019 budget reflects our priorities, as 
Secretary said, to grow and maintain a highly capable force, to 
modernize and build our future force, and to take proper care 
of our soldiers and family members and Army civilians while 
being good stewards of the taxpayer dollars.
    What this budget will provide for the taxpayer is an Army 
that has increased capacity, an Army that is increasingly 
lethal, an Army that is increasingly ready, and an Army that 
provides overmatch relative to any possible enemy. It will 
assure our allies, it'll deter our enemies, it'll allow us to 
compete effectively, and if necessary, it'll allow us to defeat 
our enemies on a field of battle. We recognize that the 
American taxpayer entrusts us with a significant amount of 
money to meet these demands. And we will be diligent stewards 
of our resources, and we will enforce accountability to make 
effective use of every single dollar. And your support for the 
fiscal year 2019 budget will ensure our soldiers remain ready 
to fight, not only tonight, but also tomorrow.
    So, thank you for the opportunity to testify, and I look 
forward to your questions.
  Prepared Statement of Hon. Mark T. Esper and General Mark A. Milley
    America's Army is lethal and effective. Our lethality provides the 
assured capability to defeat enemy ground forces through sustained land 
campaigns in defense of our vital national interests. To maintain our 
land power dominance, we will concentrate our efforts on our 
priorities--Readiness, Modernization, and Reform--to ensure America's 
Army is always ready, now and in the future. We also live by enduring 
priorities to take care of our Soldiers, Civilians, and their Families; 
to re-commit to the Army values and warrior ethos that guide us; and to 
strengthen relationships with allies and partners.
    We thank Congress for its strong support, which has enabled the 
Army to halt the decline in our warfighting readiness. Importantly 
though, the Army needs timely, predictable, adequate, and sustained 
funding to preserve these readiness gains now and in the future. The 
Army's fiscal year 2019 budget prioritizes our resources based on the 
President's guidance, and our strategy is consistent with the National 
Defense Strategy. This year's budget allows us to continue to build 
readiness for high intensity conflict and begin building our future 
force through key modernization efforts. It also enables us to continue 
to take care of our people and institute reforms across the Army to 
free up time, money, and manpower. Army leadership, with congressional 
support, is committed to ensuring America's Army is ready now and 
modernizing for the future.
                         strategic environment
    Our Army faces a complex and demanding strategic environment. This 
will require the Army to remain ready for a wide range of missions to 
defend American interests. We must build readiness for high-intensity 
conflict and modernize our forces to ensure overmatch against near-peer 
competitors, while sustaining irregular warfare as a core competency.
    Our competitors are seeking to alter global strategic realities for 
their own benefit, often at the expense of U.S. interests and those of 
our allies and partners. Russia and China continue to assert themselves 
in an effort to gain dominance in key regions, and are developing 
advanced weapons to achieve parity both strategically and in close 
combat. North Korea has pursued nuclear weapons and ballistic missiles 
for decades with significant advances over the last year. Iran is 
attempting to expand its regional influence by developing more advanced 
ballistic missiles and supporting insurgent groups against U.S. allies 
in the region. Additionally, these state actors use a range of actions 
short of armed conflict, from cyber-attacks to irregular warfare 
through proxies that destabilize regions without attribution. Finally, 
terrorist groups continue to threaten the U.S. homeland, U.S. citizens, 
U.S. interests abroad, and our allies and partners.
    Soldiers directly contribute to our Nation's efforts to counter 
these challenges by serving combatant commanders worldwide with over 
178,000 Soldiers operating across a wide array of missions. The Army is 
committed to maintaining peace, stability, and security in the Asia-
Pacific with nearly 80,000 Soldiers assigned, deployed, and forward-
stationed throughout the region. 24,000 Soldiers continue to deter 
North Korean aggression, with the Army focused on building readiness to 
respond to any contingency, including potential conflict. In Europe, 
the Army has over 30,000 forward stationed and rotational forces. In 
the Middle East, the troop increase in Afghanistan has already begun to 
advance the train, advise, and assist mission at the tactical level. In 
support of homeland defense, the Army provides over 15,000 Soldiers as 
well as a Global Response Force of 9,500 personnel, capable of 
deploying anywhere in the world within 96 hours. Over the last year, 
Army forces were critical in disaster relief efforts in Puerto Rico and 
the U.S. Virgin Islands resulting from Hurricanes Maria and Irma, the 
California wild fires and mud slides, and widespread flooding in the 
central United States.
    The Army's competitive advantage is our Soldiers' ability to 
rapidly deploy when and where required, gain and maintain overmatch, 
and achieve decisive victory against any adversary. This produces a 
combat-credible deterrent against potential adversaries who are hostile 
to our Nation's interests. Sustained, predictable, adequate, and timely 
funding will secure the Army's ability to continue to defend our 
Nation's interests.
                       the army's budget request
    The Army's total fiscal year 2019 budget request totals $182.1 
billion which consists of $148.4 billion in the base budget and $33.7 
billion for Overseas Contingency Operations (OCO). This represents an 8 
percent increase over our total fiscal year 2018 President's Budget 
plus amendments. Our request reflects the Army's priorities: grow and 
maintain a ready high-end force; build our future force through key 
modernization efforts; continue to take care of our people; and 
institute reforms that lead the Army to be even better stewards of 
taxpayer dollars.
                       readiness to fight tonight
    Ready forces ensure that the Army can compete against our 
adversaries, deter conflict, and win decisively. fiscal year 2017 and 
fiscal year 2018 authorizations and fiscal year 2017 appropriations 
provided critical support to fill manning requirements, fund important 
gains to training such as increasing combat training center rotations, 
increasing equipment operational readiness rates, building and 
modernizing Army Prepositioned Stocks, and beginning to address 
munitions shortfalls. Barring a significant increase in demand for land 
forces, the Army will attain our Total Force readiness recovery goals 
in 2022. To ensure that we meet this goal, we need predictable, 
adequate, sustained, timely funding, enabling us to sufficiently 
organize, man, train, and equip our formations.
    We are growing the Army by both recruiting and retaining physically 
fit, mentally tough Soldiers without lowering standards. Increased end 
strength has enabled the Army to fill manning shortfalls in key 
formations. Soldiers within the ranks are also increasingly deployable, 
with a 4 percent decrease in Regular Army non-deployable rates over the 
past year, and an overall goal of a 5 percent non-deployable rate by 
fiscal year 2021. Contributing to this is increased holistic fitness, 
improved medical tracking, unit injury prevention and physical therapy 
programs, and leveraging end strength increases to raise operational 
unit manning levels. These are accompanied by new policies intended to 
rebuild a culture of deployability across the force. As a result, the 
number of brigade combat teams (BCTs) in the highest state of personnel 
readiness has more than doubled.
    Tough, realistic training is key to maintaining our competitive 
advantage in the current security environment. In order to increase 
Soldiers' opportunity to conduct training focused on lethality, we have 
reduced, and will continue to reduce, ancillary mandatory training, 
requirements, and distractions at home station. We are also using 
virtual simulations to increase training repetitions for small units, 
creating greater proficiency at unit collective tasks. Leaders across 
the Army are taking steps to ensure a predictable training management 
cycle, and returning our training focus to preparation for a high-end 
fight validated at combat training centers. However, these units can 
only remain ready if they remain together, so we must also find 
innovative ways to meet combatant command demand without breaking apart 
our baseline combat formations.
    An important part of the Army's effort to maintain the readiness of 
the Army's BCTs for major combat operations is the security force 
assistance brigade (SFAB). The SFAB will provide combatant commanders 
with a skilled advisory force to team with our security partners 
worldwide. Previously, we assigned BCTs to conduct advisory missions, 
breaking those formations apart. The first SFAB deployed to Afghanistan 
in the spring of 2018. We request congressional support to man, train, 
and equip six SFABs: five in the Regular Army and one in the Army 
National Guard.
    In addition to improved training, our Army must have sufficient 
equipment. We are modernizing our equipment, refining our supply 
distribution systems, and enhancing our Prepositioned Stocks to balance 
our capabilities across multiple threats and theaters. However, we 
continue to have shortages of some critical preferred munitions. As a 
result, Holston Army Ammunition Plant in Tennessee is expanding 
production capacity, and Pine Bluff Arsenal in Arkansas and McAlester 
Army Ammunition Plant in Oklahoma are beginning repair and upgrade 
programs. We request congressional support as we continue to reform and 
align requirements and resources within the Organic Industrial Base.
               modernization: ready for the future fight
    Over the past decade, the Army made necessary but difficult choices 
to defer modernization in order to support combat operations. We 
upgraded current weapons systems rather than acquire new or next 
generation technologies. However, we can no longer afford to delay 
modernization without risking overmatch on future battlefields. Thanks 
to congressional support, the Army now has the means to modestly 
increase investments towards modernization and lay the groundwork for 
increased funding in the coming years. To improve modernization we will 
focus on three things. First, we will establish the Army Futures 
Command to reform our acquisition process through unity of command, 
unity of effort, and increased accountability. Second, through the 
efforts of eight cross functional teams, we will focus these additional 
resources towards six modernization priorities to ensure future 
overmatch. Third, Army leadership will strengthen our relationship with 
industry, our allies, and the top intellectual and innovative talent 
our Nation has to offer. Collectively, these improvements and others 
will help ensure our lethality and future readiness.
    The Army must adapt quicker than our adversaries to maintain our 
competitive advantage. This is the rationale for the Army Futures 
Command. The formal establishment of Army Futures Command in the summer 
of 2018 will represent the most significant organizational change to 
the Army's structure since 1973. The new command will consolidate the 
Acquisition process under one organization with a mission to deliver 
integrated solutions for increased lethality and capabilities to the 
Soldier when and where they are needed.
    The fiscal year 2019 budget coupled with our reforms will enable 
the Army to accelerate upgrades to critical capabilities, managing 
current risk while we innovate and prototype with a goal to begin 
fielding the next generation of combat vehicles, aerial platforms, and 
weapons systems by 2028. These vehicles and weapons must be better than 
anything our adversaries will deploy in the future. We will focus 
modernization, science and technology, and research and development 
efforts on six modernization priorities, managed and assessed by eight 
cross functional teams:
  --Long Range Precision Fires--modernize a cannon for extended range, 
        volume, and increased missile capabilities to restore Army 
        dominance in range. Systems like the Extended Range Cannon 
        Artillery, which has been accelerated to fiscal year 2023, and 
        the Long Range Precision Fires Missile, accelerated to fiscal 
        year 2021 protect and ensure freedom of maneuver to forces in 
        contact with the enemy in deep, close, and rear operations. The 
        Army has included $73.7 million for Long Range Precision Fires 
        in the fiscal year 2018 Enhancement Request, with $22 million 
        in additional requested funds in the fiscal year 2019 
        President's Budget.
  --Next Generation of Combat Vehicles--develop prototypes that lead to 
        the replacement of our current fleet of infantry fighting 
        vehicles, and later tanks, in manned, unmanned, and optionally 
        manned variants. A next generation vehicle is needed to enhance 
        Soldier protection, increase mobility, and make our forces more 
        lethal. Prototypes for both manned and robotic vehicles will 
        arrive in fiscal year 2021, with $13.1 million requested in the 
        fiscal year 2018 Enhancement, and $84 million in the fiscal 
        year 2019 President's Budget.
  --Future Vertical Lift--incorporate manned, unmanned, and optionally 
        manned variant vertical lift platforms that provide superior 
        speed, range, endurance, altitude, and payload capabilities. 
        These include the Future Unmanned Aircraft System, which is 
        undergoing experimentation and will be prototyped in fiscal 
        year 2024, and the Modular Open System Approach, a software 
        prototype that has been accelerated from fiscal year 2028 to 
        fiscal year 2026. $25.1 million is included in the fiscal year 
        2018 Enhancement Request for Future Vertical Lift, with 
        additional funds included in the fiscal year 2019 President's 
        Budget.
  --Network--develop expeditionary infrastructure solutions to fight 
        reliably on the move in any environment. The Army Network 
        should incorporate electronic warfare; resilient, secure, and 
        interoperable hardware; software and information systems; 
        assured position, navigation, and timing; and low signature 
        networks. $180 million is included in the fiscal year 2018 
        Enhancement Request to conduct Network related experimentation 
        next fiscal year, including an Infantry Brigade at the Joint 
        Readiness Training Center this summer, and a Stryker Brigade by 
        early 2019.
  --Air and Missile Defense--ensure our future combat formations are 
        protected from modern and advanced air and missile delivered 
        fires, including drones. We are focusing on capabilities that 
        include Mobile Short-Range Air Defense with directed energy and 
        advanced energetics. We are also accelerating the fielding of 
        existing air defense capabilities over the coming years.
  --Soldier Lethality--develop the next generation of individual and 
        squad weapons; improve body armor, sensors, and radios; and 
        develop a synthetic training environment that simulates the 
        modern battlefield, allowing our Soldiers multiple iterations 
        before they ever deploy. The fiscal year 2018 Enhancement 
        Request includes $81 million to experiment and procure Enhanced 
        Night Vision Goggles by fiscal year 2021.
    These modernization priorities illustrate how our Army will adapt 
to future threats. The cross functional teams are the driving force for 
the modernization priorities. Each cross functional team uses technical 
experimentation and demonstrations, in conjunction with increased 
engagement with industry and commercial sector partners, to inform 
prototype development and reduce the requirement process.
    The Army remains concerned about preserving key skills and 
capabilities for our original equipment manufacturers and their key 
supplier bases. Collaboration with our private sector partners early in 
the process helps reduce risk. Efforts such as the Army Manufacturing 
Technology Program have provided affordable and timely manufacturing 
solutions that assist our industry partners to address manufacturing 
risks. Collectively, congressional support for the Army Futures 
Command, implementation of the future recommendations of the cross 
functional teams, and a strong relationship with the commercial base 
has one simple goal: make Soldiers more lethal and ready for the 
future.
                                 reform
    To achieve these objectives, we are assessing everything we do 
across the Army, looking for ways to free up time, money, and manpower 
for our top priorities. In support of DoD reform efforts, we have 
placed increased emphasis on a number of business reforms and 
stewardship initiatives. Specifically, we are instituting Army-wide 
programs that address Acquisition Reform; Contract Management; Budget 
Execution; divestiture and consolidation of legacy information 
technology systems; and auditability of our resources.
    The Army's Acquisition Reform Initiative shortens the development 
timeline and approval process of capabilities requirements. This reform 
initiative directs the consolidation of two oversight groups into one 
and provides Army leadership with access to decisions earlier in the 
decision cycle. The Army is creating strategic enterprise metrics 
through policies and procedures intended to drive significant savings 
from the reform of contracted services per year from 2020 to 2024. We 
are also monitoring de-obligating funds through the Command 
Accountability and Execution Review to increase Army annual buying 
power. Additionally, we are improving our auditability. This year, we 
plan to complete an independent audit that will further enable the Army 
to improve our business practices and management of our resources.
    Another key area of reform is in Army institutions. We are 
undertaking efforts to optimize non-divisional two-star headquarters 
and above to enable faster decisionmaking. We are beginning by 
optimizing key essential tasks at the Army Secretariat, Army Staff, and 
Army Commands to address manning requirement needs at the division 
level and below. Next, revised experimentation and war gaming will 
accelerate new Army warfighting doctrine, providing a comprehensive 
framework to underpin how we train and how we fight. And finally, a new 
talent management based personnel system will optimize individuals' 
effectiveness and professional development, and ensure we develop and 
retain exceptional Leaders and Soldiers of unmatched lethality.
         soldiers, civilians, and families: our greatest asset
    The United States Army is composed of Regular Army, Army National 
Guard, and Army Reserve Soldiers, Civilians, and Family members serving 
the Nation at home and abroad. The quality of Soldiers the Army 
attracts and retains is extremely high. Quality metrics for Army 
recruits are at their highest point, exceeding every DoD-mandated 
education and aptitude threshold for the eighth year in a row. Waivers 
for recruits are down nearly 8 percent over the past decade. The Army's 
long term success depends on developing smart, innovative leaders of 
character who bring a wide range of skills and experiences to our 
ranks. We will remain a standards-based organization and maintain the 
values that we have established for those who enter and serve the Army 
and for those Soldiers who remain for a career. We will not lower 
standards to meet our end strength goals.
    The Army is committed to taking care of our Soldiers, Civilians, 
and their Families by maintaining opportunities for promotions and 
schooling, providing attractive career options, and continuing quality 
of life programs. We ensure the well-being of our people through world-
class medical services, quality facilities to live and work, and child 
care and youth services. New civilian hiring initiatives for spouses 
promise to accelerate work opportunities on Army installations, while 
other reforms may allow them to sustain careers by reducing the 
frequency of moves. The cumulative effect of these programs is to 
increase retention through increased satisfaction with Army life.
    We also take care of individual Soldiers and strengthen teams 
through Sexual Harassment/Assault Prevention and Response initiatives, 
active Suicide Prevention measures, Army Warrior Care, and transition 
assistance through our Soldier for Life program. In particular, a new 
task force is addressing suicide reduction in the Army National Guard 
and Army Reserve. Taking care of our people ensures Soldiers and 
Families have the support they need to focus on preparing to deploy, 
fight, and win our Nation's wars.
                               conclusion
    On behalf of the entire Army, we thank Congress for their support 
that allows us to continue to improve readiness and make an increased 
investment in our future Army. Our current security environment 
continues to have numerous challenges, and they are growing. With 
predictable, adequate, sustained, and timely funding, we will increase 
capacity, train advisory forces, close critical munitions gaps, improve 
modernization, and take care of our Soldiers, Civilians, and their 
Families. We are a standards-based organization accountable to Congress 
and the American people. We know that the only acceptable result of our 
efforts is a lethal Army, ready now, and prepared for the future.

    Senator Shelby. Thank you, General.

                      RESEARCH FUNDING REALIGNMENT

    I'll direct my first question to you, Mr. Secretary. The 
2019 budget request that this committee is currently 
considering here proposes to realign around 80 percent of the 
Army's science and technology funding to its six modernization 
priorities, about $1.1 billion, I think. How is the Army 
ensuring, Mr. Secretary, that it isn't walking away from 
previous investments in basic research? And can you describe to 
the committee today how the Army will incorporate changes in 
modernization needs in the future in this area?
    Secretary Esper. Yes, sir. We have preserved the funding 
for basic research. The--what we did align, though, is the 
research beyond that that is in the S&T (Science and 
Technology) budget. And you're correct, over a billion dollars. 
The purpose was, as you noted, to make sure it was aligned with 
our six modernization priorities, that we were maximizing every 
single dollar that the taxpayer gave us for these types of 
accounts to ensure that we get what we're looking for, in terms 
of those capabilities we need in the coming years to fulfill 
the National Defense Strategy.

                   UPDATE ON MODERNIZATION PRIORITIES

    Senator Shelby. Mr. Secretary, could you update the 
committee on the progress--of efforts, that is, on the Army 
modernization strategy with the new Army Futures Command 
centered on six modernization priorities and eight cross-
functional teams, as I understand? Can you do that?
    Secretary Esper. Yes, sir. We set up a modernization 
strategy report a couple of weeks ago that was due to Congress. 
The committee should have a copy of that. The key aspect of 
that is, it talks about the future strategic environment that 
we face, that operational environment, as guided by the 
National Defense Strategy. What it aims to do is to rebuild our 
capabilities and capacity in those six modernization areas--
priority areas--beginning with long-range precision fires 
through next-generation combat vehicle, future vertical lift, 
the network, air missile defense, and then, finally, soldier 
lethality. With those six priorities and the eight cross-
functional teams aligned to them, we believe our efforts will 
focus on those lines and allow us a greater--a faster path to 
deliver to the soldiers those tools and capabilities they need 
to fight and win in future battlefields.
    Senator Shelby. Mr. Secretary, last spring, it's my 
understanding that the Army brought out a new strategy to 
modernize its tactical network in an effort to meet operational 
needs in today's congested and contested environment. Can you 
speak on that for a few minutes?
    Secretary Esper. Yes, sir, I can. And I'm sure the Chief of 
Staff may want to elaborate on it.
    My understanding is, at the time, coming out of what we saw 
in Ukraine, with the Ukrainians versus the Russians, then 
followed by a report by the Institute for Defense Analysis, we 
determined that the network that was built for the Army in the 
2000s and beyond focused on Iraq and Afghanistan, worked for 
fixed sites, but was not capable of holding up in future 
conflict that saw much more--much greater need for maneuver, 
saw us against a threat that had electronic warfare 
capabilities that could interrupt our networks, et cetera. And 
so, the need was to move to a strategy that was--that we have 
dubbed ``halt, fix, and pivot.'' So, we halted those pieces of 
that system that would not survive beyond a fixed-site type of 
location against a low-intensity conflict. We are aiming to fix 
the capabilities that we think we can harvest and use for the 
future fight. And then, right now, for the pivot, we are 
exploring commercial technologies. We believe that's largely 
the path we need to go to ensure that we continue to upgrade 
our networks and can sustain the capabilities at the pace of 
commercial technology development.
    Senator Shelby. General, do you want to comment on that?
    General Milley. The Secretary covered it adequately. I 
would just add that the current network--and it's not just an 
Army issue, it's a broader U.S. military issue--but the current 
network does have a series of vulnerabilities associated with 
it because of the nature of what it was built for. And given a 
shift to great-power competition against the likes of China or 
Russia, we definitely need to--significant improvement in that 
capability. So, on a classified level, Senator, I'd be happy to 
give excruciating levels of detail on what those 
vulnerabilities are, if necessary or asked for.

                    UPDATE ON AFGHANISTAN OPERATIONS

    Senator Shelby. General, the Army's first security force 
assistance brigade recently deployed to Afghanistan to advise 
and to assist Afghan National Security Forces. In view of this 
deployment and others, could you provide for the committee here 
an update on our Afghanistan operations and on the Department's 
new South Asia strategy? What you can talk about here.
    General Milley. Certainly, Senator. A brief note on the 
security force assistance brigade. The first one deployed, as 
you noted. The second one is being formed currently at Fort 
Bragg. Secretary is going to make a decision here shortly on 
the stationing of the other SFABs (Security Force Assistance 
Brigades). There's going to be five in the Active component, 
one in the National Guard. And their purpose is to provide a 
significantly enhanced capability of advisors to host-nation 
partners in order to coach, teach, mentor, train, advise, 
assist, and enable as part of a broader strategy to work by, 
with, and through our indigenous partners.
    With respect to South Asia and Afghanistan, our current 
strategy is--as you know, is the four Rs plus S. And that is to 
regionalize the issue of Afghanistan, to realign our efforts 
there, to reinforce with additional capabilities, which is 
being done, and to reconcile with the Taliban and others. On 
that--the last one is led by the Government of Afghanistan. And 
then to sustain that level of effort. At the end of the day, 
the effort in Afghanistan, it's my opinion, will come to 
conclusion with reconciliation between the various insurgent 
groups and the Government of Afghanistan. And we're there to 
support them in order to prevent future attacks on the homeland 
of the United States.

                         STRYKER DOUBLE-V HULL

    Senator Shelby. General, I'm going to get into the Stryker 
double-V hull. After the 2019 budget was submitted, the Army 
reassessed its priorities, as I understand it, for the Stryker 
vehicle, including modernization requirements for--of the 
Stryker brigade combat teams. Could you give us an interview--
an overview of the benefits of converting all Army flat-
bottomed Stryker vehicles to the double-V hull, the A-1 
variant, and describe how the Army will resource the new 
requirement?
    General Milley. The--as you know, Senator, over the last 
16, 17 years of continuous combat, we've had a lot of lessons 
learned. And one of those lessons learned is the vulnerability 
to IEDs, improvised explosive devices that detonate underneath 
the vehicle and come up through the bottom of the hull. So, we 
also learned that making a V cut in the bottom of the hull 
disperses the energy from the explosive and provides much 
greater--increased survivability to the crew inside. So, 
double-V hull----
    Senator Shelby. What is the survivability rate with the V 
hull compared to the other?
    General Milley. It's significantly better. I don't know the 
exact specific numbers----
    Senator Shelby. But, a lot.
    General Milley [continuing]. But I would put it up in the 
80- to 90-percent----
    Senator Shelby. Can you furnish that for the record?
    General Milley. Absolutely. I'll get you the actual 
numbers, but it's 80 to 90 percent better, easy money.
    [The information follows:]

    The U.S. Army Test and Evaluation Command conducted underbelly 
blast testing on Flat Bottom Hull and Double-V Hull Strykers. Analysis 
of those test results indicates the Stryker Double V-Hull is over 85 
percent more survivable than flat bottom Strykers against underbelly 
blasts.

    Senator Shelby. Thank you.
    General Milley. And I would much--personally, prefer having 
my soldiers driving a double-V hull than a flat-bottom. Your 
chance of survival is----
    Senator Shelby. Thank you.
    General Milley [continuing]. Significantly better.
    Thank you.
    Senator Shelby. Senator Durbin.
    Senator Durbin. Thank you very much.

                      COMPARATIVE DEFENSE SPENDING

    And I'm going to ask you all a townhall question. It's the 
kind of thing we might run into in any town in America. 
``Senator, you tell us that one of our biggest threats, 
greatest enemies, is Russia. Turns out, we read recently, that 
Russia spends about $80 billion a year on its military budget--
$80 billion. Senator, aren't you increasing the Department of 
Defense budget by that amount this year and maybe again next 
year? So, let me get this straight. We're spending $600-$700 
billion dollars against an enemy that's spending $80 billion. 
Why is this even a contest?''
    General Milley. I'd just make one comment. I've seen 
comparative numbers of U.S. defense budget versus China, U.S. 
defense budget versus Russia, or any other numbers of 
countries. What is not often commented is the cost of labor. 
And everybody who takes Econ 101 knows cost of labor is your 
bigger--biggest factor of production. U.S. cost of soldiers 
is--we're the best-paid military in the world, by a longshot. 
Easily 50 percent--actually, it's a little bit more--is in the 
MILPERS account. The cost of Russian soldiers or Chinese 
soldiers is a tiny fraction. So, we would have to normalize the 
data in order to compare apples to apples and oranges to 
oranges. We'd have to normalize the data, take out the MILPERS 
accounts for both the Chinese, Russians, and/or the U.S., and 
then compare the investment costs. And I think you'll find that 
Chinese and Russian investments--modernization, new weapon 
system systems, et cetera, their R&D, which is all government-
owned and also is much cheaper--I think you'd find a much 
closer comparison, Senator.
    Secretary Esper. Senator, I would also add that, unlike 
Russia or China, we have global responsibilities, we have 
commitments, of course, with our NATO (North Atlantic Treaty 
Organization) partners that we have to maintain. We have 
bilateral defense agreements with several countries in Asia. 
And you can't look at one, you have to look at the sum of 
things. And I would argue, as well, what I would say is the--
while the price of deterrence and maintaining peace is high, 
the cost of fighting a war is much greater, and the cost of 
fighting a war and losing it is even greater than that.

                      RESOURCE/FUNDING ALLOCATIONS

    Senator Durbin. The other thing I've discussed with 
Secretary Mattis and others--we've discussed this--is the fact 
that we readily concede that, under current situations, we can 
do better, in terms of procurement. There's money that's being 
wasted, money that should be more carefully spent. And I take 
it from what you've described as your goals--readiness, 
modernization, and reform--that the last goal is one that 
really speaks to that, particularly. There are a couple of 
things we've done, that I'm familiar with personally--digital 
manufacturing, which is a Department of Defense initiative to 
create new ways of producing things that are more efficient and 
most cost-efficient. The Army Research Lab is trying to reach 
out into universities. We have ongoing effort, like--such as 
this, in the City of Chicago, so that we can link--in the State 
of Illinois--and link up the best university research resources 
with the needs of the modern Army so that we're not only coming 
up with the right requirements of what we want to achieve, but 
we're also coming off with the best innovation and budgeting 
and processes that bring those savings home.
    Can you tell us what you're hoping to achieve with the Army 
Futures Command when it comes to that?
    Secretary Esper. Yes, sir. First of all, we are pursuing a 
number of initiatives across the board to free up time, money, 
and manpower, mainly for the reasons that you mentioned in your 
opening remarks. We don't know what fiscal year 2020 will look 
like, or 2021 or 2022, so we want to free up time, money, and 
manpower as much as possible to have more control over our 
destiny in those out years.
    That said, Army Futures Command gets a lot of the 
attention, for good reasons. It'll be the biggest reform of the 
Army in 45 years. One of the key aspects of it is to make sure 
that it presents a different face toward the private sector so 
that we--what we do is reach out and invite more--not just the 
traditional defense vendors, but also nontraditional defense 
suppliers--small business, the entrepreneurs. We reach out to 
academia. We tap into that talent, wherever it may be, to make 
sure that we maximize every dollar we get to put it back into 
our soldiers. Because, as you said, rightly, we've squandered--
we've--the Army acquisition has had a mixed record in the past; 
and certainly on some programs, we've squandered billions and 
we've left the soldiers without the equipment they need. We're 
trying to fundamentally reform that. And one aspect of that 
that Army Futures Command promises is the greater outreach to 
those centers of innovation that are out there in either 
academia or the private sector.
    Senator Durbin. I think an example we've talked about is 
the WIN-T program. I don't know how many years ago, the Army 
sat down and said, ``We've got to modernize battlefield 
communications. And let's draw up a list of requirements of 
what we want to achieve.'' It was years ago that that list was 
produced. And in that period of time since that list was 
produced, to the modern time, the way we communicate as 
individuals, with our cellphones and other means, has just 
changed dramatically.
    Secretary Esper. That's right.
    Senator Durbin. The pace of change is much faster than even 
the vision of those who were talking about battlefield 
communications in the next 10 years. We've got to find a way to 
tap into that innovation, to make that part of our own effort 
to modernize and protect our troops. I'm sure you agree with 
that, because we've talked about that repeatedly.
    Secretary Esper. Yes, sir. I mean, the ``halt, fix, and 
pivot'' piece of the--of our network strategy, focusing on the 
pivot piece, as I described in response to the Chairman, is, we 
know that the commercial technology is moving at a much quicker 
pace than we could ever keep up with, even if we tried. So, how 
do we tap into that? I will tell you that, in some of the new 
systems that I've seen so far--and I had a demonstration given 
to me a few months ago at Fort Myer--we've taken what used to 
be a stack of servers that were as high as a refrigerator, and 
reduced it down to one box the size of a VCR (videocassette 
recorder). And that, alone, in terms of dollars and space, 
gives us tremendous savings. I saw the same thing in a Stryker 
vehicle, where we took what used to be a series of pieces of 
equipment that occupied an entire seat or section of a Stryker, 
completely freed up by putting in a small box that was adapted 
from the commercial sector.
    So, that's what I think you'll see. As compared to us 
buying into a--having a lengthy set of requirements and buying 
into a piece of hardware that will last many, many years, what 
we'll probably buy is a commercial piece of hardware, more 
likely, and then update the software as we go. And you'll see 
us buy different pieces as we go along, just to keep up with 
technology that's happening in the private sector.

                            SOUTHERN BORDER

    Senator Durbin. I was going to get into the southern border 
update. My time is expired, though. But, I--perhaps one of my 
colleagues will ask, or I'll come back.
    Thank you.
    Secretary Esper. Yes, sir.
    Senator Shelby. Senator Leahy.
    Senator Leahy. Thank you, Chairman. Thank you, Senator 
Durbin.
    It's interesting, Doctor, your conversation with Senator 
Durbin. And I think of the evolution. I remember the very 
frightening time when President Reagan was shot, and Vice 
President Bush was out of town, but coming back and trying to 
communicate with the White House and all. And we talked about 
it later. The communication gear he had on Air Force 2, similar 
to what was on Air Force 1, was years behind what private 
planes had, commercial companies that owned, and all that. I 
said, ``Why don't you go to that or''--and then, around that 
time, we had somebody testify how we had to prepare for nuclear 
war and they needed $50,000 Xerox machines, if you remember 
what those were, and $50,000 being lead--or they be special--
they wouldn't be hurt by radioactivity so they could send 
communications back and forth. Well, why don't you just--I 
said, ``Why don't you just buy a couple of these things and 
copy machines--$100,000 copy machine, just buy a couple of 
normal ones, stick them in a lead box, and if you ever need 
them, bring them out?'' Hadn't thought of that. Well, small 
things, but I think we have to--I was dying to hear your answer 
to Senator Durbin.

    EXPANSION OF PILOT PROGRAM TO KEEP ACTIVE/RESERVE UNITS TOGETHER

    General Milley, you started a pilot program 3 years ago to 
associate the Active Duty and Reserve component units with each 
other. We've discussed this. They'd wear the same patch, be in 
the same readiness requirements, and make sure they deploy 
together. Your old unit, the 10th Mountain Division, it was a 
storied unit. Senator Dole served in that. Vermont's 86th 
Brigade Combat Team make up one of the--I'm very proud of them. 
This year, the Georgia National Guard, the 3rd Infantry 
Division, are at the Joint Readiness Training Center, preparing 
for an upcoming deployment.
    I think these kind of associations should be permanent and 
expanded throughout the Army. How do you feel about it?
    General Milley. The entire effort, we started 2 and a half 
years ago, Senator. Today, we've got seven divisions 
participating in it--seven Active divisions, one Guard 
division, and so eight out of 18 divisions. And the whole idea 
is to give meaning to the word ``total Army.'' As you know, the 
Army's got the regular Army, the Active Duty Army, the National 
Guard, and the Army Reserve. And in the Army Reserve and the 
National Guard, they don't wear ``U.S. National Guard'' on 
their uniform. It says ``U.S. Army.'' So, we want to give real 
meaning to the idea of total Army. So, we want to integrate 
National Guard units with our Active-component units. So, we've 
done that with seven divisions. We've got three separate 
brigades involved. And we've got a few other units throughout--
and you mentioned 10th Mountain and the Vermont Guard. It's a 
very effective program. Units are actually swapping patches. We 
think it's increased the readiness of the National Guard units 
associated with it, but also we've increased the readiness of 
the regular Army units that are doing it.
    But, it's very, very important program, and we want to 
continue it and expand it as we go down through the years.
    Senator Leahy. And you see these associations becoming 
permanent?
    General Milley. Absolutely. I mean, they're--by law and--to 
make it permanent--let me caveat that--to make that permanent 
is--can be somewhat difficult, only in the sense of--the 
National Guard comes under the statutory responsibility of the 
Governors----
    Senator Leahy. Sure.
    General Milley [continuing]. Until they're Federalized. 
But, that's why we call them ``associated units,'' as opposed 
to permanently assigned to the divisions. But, associating them 
on a permanent or a habitual basis----
    Senator Leahy. The training----
    General Milley [continuing]. Is something that we're trying 
to do.
    Senator Leahy [continuing]. And all the rest.
    General Milley. The training, the readiness. We want to do 
that on a continuous and permanent basis.

                      ARMY MOUNTAIN WARFARE SCHOOL

    Senator Leahy. Okay. And speak of--both of you, and 
beginning with you, Mr. Secretary--we met a few days ago, and 
we talked about the Army Mountain Warfare School that's located 
in Jericho, Vermont. And I want to publicly thank you for the 
call you made to our adjutant general after the avalanche in 
March injured six soldiers. I'm grateful they're not worse, but 
they--showed your concern and General Milley's concern. What's 
the value of a mountaineering school?
    Secretary Esper. Well, first of all, thank you for your 
comment, Senator. And I am looking forward to visit the 
Mountain Warfare School next winter to really spend some time 
with them and fully understand. But, by reputation, which says 
a lot for them, they are renowned for their expertise in 
climbing and mountaineering, mountain warfare. And I think 
that's a specialty that is important for an Army that needs to 
be prepared to fight anytime, anywhere.
    Senator Leahy. My wife and I climbed to our mountain trails 
at our home with the snowshoes they've developed. They're a lot 
better than the old style. And----
    Secretary Esper. Yes, sir.
    Senator Leahy [continuing]. Appreciate that. And the Army 
JLTV (Joint Light Tactical Vehicle) development and 
procurement's been highly successful, but we are still fielding 
Humvees, at least until around 2050, by most estimates. We 
have--I'm told we have more efficient power management systems, 
band sensors, monitored torque vehicle held monitoring kits 
through to remotely pilot the vehicles. Now, you've been 
testing kits through remotely controlled Humvees. What's the 
value of doing that?
    Secretary Esper. Of--I'm sorry--doing which part, Senator?
    Senator Leahy. Remotely controlling Humvees.

            BENEFITS OF REMOTELY CONTROLLED COMBAT VEHICLES

    Secretary Esper. Yes, sir. I think part of the vision that 
the Chief and I are outlining is a future Army, where we have 
a--where we have vehicles--combat vehicles that can be both 
manned and unmanned. What that does is give us a great deal of 
flexibility, in terms of how we employ them on the battlefield. 
In cases where you could see, much as we saw during the Iraq 
war, exposed convoys of soldiers moving supplies from, let's 
say, Kuwait to Baghdad, if you had unmanned vehicles that could 
make that--traverse that difficult road unmanned, then they 
would--it would reduce the vulnerability of our soldiers. So, 
that's an example of why we want to pursue unmanned combat 
vehicles or capabilities in our combat fleet.
    General Milley. Let me make a quick comment, Senator, if I 
could. And I know you're out of time, but----
    The character of war is changing fundamentally. We've 
talked that at length. One of those is robotics. And the 
probability is--my personal estimation is that robots will play 
a significant role in ground combat inside of a decade, decade 
and a half, in that range. Our adversaries, our competitors--
China, Russia, and others--are investing heavily and very 
quickly in the use of robotic vehicles in all the domains--air, 
maritime, and on the ground. And we are doing the same now. So, 
under our priorities, all vehicles that the Army procures in 
the out years, we want them to be dual- or actually triple-
purposed so that the vehicle has the--the command has the 
option of it being manned, the commander has the option of it 
being unmanned or robotic, or the commander has the option of 
making it semi-autonomous, where it's controlled by a human, 
depending on the tactical situation at the moment in time.
    Senator Leahy. Good. Thank you very much, Secretary and 
General.
    Thank you, Mr. Chairman.

                       TECHNOLOGICAL COMPETITION

    Senator Shelby. Before I recognize the next Senator.
    Mr. Secretary, you have a--I want to touch on something 
that Senator Leahy brought up, and that is that you--the Army 
and the Air Force and the Navy, our Marines, everything, you 
can't let the market run ahead of you, technologically. You 
know, you, Mr. Secretary, come from the Army, West Point, but 
you all come from the private sector in recent years, back to 
the Secretary of the Army. You have a unique perspective on 
this. But, Senator Leahy touched on something very important, 
because of the technological revolution we're going through. 
We've basically led it, but we've got some potential 
adversaries that are nipping at our heels. How important is 
that for us to know what's going on in the marketplace?
    Secretary Esper. Senator, it's critically important. I 
mean, the velocity at which technology's changing is just 
enormous. So, if we don't reform how we--our acquisition 
process----
    Senator Shelby. We should never be behind the market, 
should we?
    Secretary Esper. Or at least right on its tail.
    Senator Shelby. Right on.
    Secretary Esper. In the past, one of the things we have to 
fundamentally reform, which is the promise of our cross-
functional teams and Army Futures Command, is to reduce the 
requirements process from what used to be 5 to 7 years down to 
12 to 18 months. If not, by the time you determine the 
requirements----
    Senator Shelby. Yes.
    Dr. Esper  [continuing]. And build something, the 
technology has changed again. So, we--that's why, particularly 
with the network, we have to stay right on the edge of 
technology with regard to communications. We're just there, or 
just behind it, but we can't be--afford to be 3, 4, 5, 10 years 
behind. We just won't have the capabilities we need.
    Senator Shelby. I thought that was a very important point 
that he brought up.
    Secretary Esper. Yes, sir.
    Senator Shelby. Senator Tester. Thank you for your 
indulgence.
    Senator Tester. You bet. Thank you, Mr. Chairman.
    And I want to thank you, Dr. Esper and General Milley, for 
your service and the people you represent. Thank you very, very 
much.
    The new National Defense Strategy focuses heavily on 
preparing for the possibility of a near-peer threat. And I 
think the President's budget request reflects that priority. 
The Army National Guard is designating specific units as 
focused readiness, and the Army Reserve has ready force X to 
prepare for the near-peer possibility.

               PERSONNEL IMPACT OF NEAR-PEER THREAT PREP

    As the requirements of ongoing contingency operations stack 
up with training and readiness for near-peer threats, what is 
the impact on individual guardsmen or reservists? Is it more 
training days? More deployments? Or anything else?
    General Milley. Well, the initiative that we want to do is 
increase the overall readiness of the National Guard.
    Senator Tester. Yes.
    General Milley. In order to do that, given the speed at 
which a conflict could unfold, the current timelines of 
mobilization and deployment are not small, and we want to 
reduce the amount of time. So selected units in the Guard--the 
National Guard Bureau has designated some of them as focused 
readiness units along with the Army Forces Command. And so, we 
do want to want to increase the amount of training days 
associated with those particular units in order to ensure that 
they are prepared and ready to go into ground combat.
    Senator Tester. All right. And would more deployments 
necessarily follow that?
    General Milley. Well, after they're up to a certain level, 
we would consider using them on a deployment if there was a 
requirement from a combatant commander.

                 INCENTIVES FOR TIME AWAY FROM FAMILIES

    Senator Tester. Okay. Is anything being done to take care 
of the time away from families, which would--this would 
require? Is anything being done, maybe TRICARE for units with 
high operation tempos, retention bonuses in Santa Fe? Is 
anything done in that line at all?
    General Milley. Well, they would get the--once they're 
brought on Active Duty, they get to same--they have access to--
--
    Senator Tester. Okay. But, not for----
    General Milley [continuing]. The same benefits as any other 
soldier on Active Duty.
    Senator Tester. But, the Active Duty doesn't necessarily 
follow the additional training days, correct?
    General Milley. Well, they're on Active Duty while they're 
in the training day.
    Senator Tester. Okay. All right.
    Secretary Esper. And, Senator, I would add, you know, I was 
in the Guard, myself. So, as a guardsman, I appreciate the 
particular impacts that are unique to the Guard with regard to, 
you know, time away from home, and particularly the challenges 
for the employer. So, one of the things we have to be conscious 
of, careful of, is employer fatigue with regard to multiple 
training and deployments.
    Senator Tester. Yes. I appreciate that.
    Secretary Esper, thank you for the conversation we had last 
Thursday. Appreciate you making time for that. And we talked a 
little bit about the National Governors Association letter that 
you and other Secretaries wrote on military families--spouses, 
in particular. And I have got a call in to Governor Bullock to 
take that up with him.

           ARMY ASSISTANCE IN SPOUSAL DEVELOPMENT/EMPLOYMENT

    Is there anything--any additional light you can shed on 
what the Army's doing to assist military spouses with 
professional development and seeking employment?
    Secretary Esper. Yes, sir. It's one of--a top priority for 
me. It's something that I discuss with spouses at nearly every 
post I visit.
    Senator Tester. Yes.
    Secretary Esper. It is unacceptably high. And so, what 
we're looking at is, I've--I'm--I have undertaken a series of 
initiatives that I can control, myself, within the Army to 
reduce the hiring time. The hiring time, right now, on average, 
is around 140 days, which is unacceptable. So, I'm taking a 
number of initiatives at my level to reduce that. There are 
some things that I will eventually elevate to DOD (Department 
of Defense). And then there are some things that I cannot fix, 
because it's resident in OPM (Office of Personnel Management) 
and how OPM does it.
    Senator Tester. Okay.
    Secretary Esper. So, if it were possible to move that 
hiring authority either to DOD or DO---or to the Department of 
the Army, we'd be able to really accelerate the--our ability to 
hire spouses and civilians, writ large.
    Senator Tester. Okay. And----
    General Milley. Sir, if I could make a quick----
    Senator Tester. Yes, go ahead.
    General Milley [continuing]. Comment. One of the key things 
for spouse employment for the Army, unique to the Army--I 
suppose, is to--is long-term stabilization of soldier 
assignments. That's a challenge for the Army, but that is 
probably the biggest impediment to stabilizing a spousal--
spouse employment in a local area. The constant churn of 2-, 3-
year reassignments works against spouse employment. It's----
    Senator Tester. So, what----
    General Milley [continuing]. More difficult.
    Senator Tester. What's going to be your goal on 
reassignments? How many years?
    General Milley. Well, the enlisted force, we think we can 
probably achieve longer than 3-year assignments. The officers, 
it's significantly more challenging because of career 
development opportunities that we want for our officers. So, 
we're looking at that. We're examining it. But, that--the two 
things that I've mentioned to Secretary Esper is stabilization 
of assignments and the vetting--streamlining the vetting 
process for on-base employment. Those two things--if we do 
those two things we should significantly improve employment 
opportunities for spouses.
    Senator Tester. Good.

                       MENTAL HEALTHCARE SERVICES

    The last thing deals with mental health, it deals with 
suicides. Guard and Reserve are suffering higher rates than 
Active military. You guys know that. Guardsmen and reservists 
have almost no access to VA mental health services if they 
aren't deployed. They also lose the DOD healthcare services if 
they're outside the deployment window. Does the Army have any 
plans, for either one of you, to provide additional mental 
healthcare resources to the Reserve components outside the 
deployment window?
    Secretary Esper. Senator, we currently require an annual 
mental health assessment for all of our Reserve-component 
soldiers. And then, of course, prior to, during, and post 
deployment, we require three additional mental health 
assessments, as well. And so, the key thing is to make sure 
that at--as part of that, we provide those types of behavior 
health services. And we do provide those. But, you're right, 
the challenges that--while we have access to our soldiers on 
Active Duty 24/7, in the Guard--and again, my own personal 
experience is, you see your colleagues for 2 days, and then you 
don't see each other for another 28.
    Senator Tester. Yes.
    Secretary Esper. And then it's back again. So, it's 
particularly challenging to identify that. And we know that, if 
you had that type of closer interaction on a daily basis, you 
could help spot these problems--issues before they become a big 
problem.
    Senator Tester. So, are you working on any plans--I mean, 
this is--I mean, it's a bad enough problem, period, but it's 
even worse, like I said, with guards and reservists--are you 
working on any plans to try to figure out a contingency to deal 
with this issue?
    Secretary Esper. I do have the--our behavior health and our 
suicide prevention teams coming back to brief me on new 
initiatives, a new strategy to lower our rate further. I think 
one of the most important things we're emphasizing--and even 
talking to the soldiers and leaders, it proves it out--is, the 
chain of command has to get more involved with their soldiers 
particularly during off-duty hours.
    Senator Tester. Yes.
    Secretary Esper. And that applies to the Guard and Reserve 
the same. It could be a phone call, it could be visiting them. 
But, we find that type of continued touchpoints in intervention 
gives you a better sense of what's going on in your----
    Senator Tester. I'd just----
    Secretary Esper [continuing]. Soldiers' lives.
    Senator Tester [continuing]. Offer a suggestion. And I'm 
not a doctor, but--and you might already be doing this--but, I 
think the spouses also play a critical role on this. And having 
them trained up for what they see, and having points of contact 
that they can get a hold of when they're out in the sticks and 
not in the deployment window.
    Secretary Esper. Yes, sir. Great point.
    Senator Tester. Thank you very much.
    General Milley. Senator, if I could just make a comment, I 
think the chains of command in the Guard and the Reserve are 
doing an excellent job of being engaged with their soldiers. 
The data to date--this is for this year, 2018--for the Guard, 
they're down significantly, in terms of their suicides, as well 
as Reserves. So, 30 percent in the Guard, and 12 or 13 percent, 
or something like that, in the Reserves. So, that's a credit to 
the chains of command, in my view.
    Senator Tester. Good. Thank you.
    Senator Shelby. Senator Moran.
    Senator Moran. Mr. Chairman, I would yield to the Senator 
from Hawaii, who looked so disappointed when I walked in the 
room.
    [Laughter.]
    Senator Moran. And I'm happy to take time, following him.
    Senator Shelby. Senator from Hawaii.
    Senator Schatz. Thanks, to the Senator from Kansas. And I 
am never disappointed to see you in the room.
    Thank you very much, Mr. Chairman.

               HAWAII INFRASTRUCTURE READINESS INITIATIVE

    Secretary Esper, I wanted to talk to you about the Hawaii 
Infrastructure Readiness Initiative, which, as you know, is a 
long-term plan to make sure Schofield, Wheeler, Shafter, PTA, 
our jungle training areas, are the--help us to implement our 
strategy in the Asia-Pacific region. Can you talk about the 
Army in the Pacific over the next 10 to 20 years, and how HIRI 
helps us to implement that?
    Secretary Esper. Yes, sir. Well, the--of course, the 
Pacific will continue to be important to the Army, to the 
military, writ large--Asia, because of--again, we're informed 
by the National Defense Strategy that China will be a--is a 
long-term strategic competitor. So, with regard to Hawaii, that 
it's imperative that we maintain that as a deployment platform 
and that the forces we have stationed there are ready to go to 
meet those threats.
    And you're right, with regard to what we're currently 
POMing, '22 to '24, the Hawaii--and readiness initiative has 
over $300 million currently planned in there to do all those 
things that you talk about. I saw some of those in--necessary 
improvements during my trip to Hawaii in January, and it's 
important that we maintain all of our platforms for readiness 
and deployment, as well.

                       ARMY'S ROLE IN THE PACIFIC

    Senator Schatz. So, a bigger-picture question about the 
Pacific, the conflicts that the Army is currently involved in 
in South Asia are just different, demographically, 
topographically, geographically, and I'm wondering how you see 
the Army's role in the Pacific as different, in terms of our 
operations, in terms of the capabilities that we need. How does 
the Army need to adjust to the possibility of a conflict in the 
Pacific, given that a lot of the activity that our soldiers are 
seeing, that the Army itself is seeing, is in South Asia, which 
is just vastly different? Can you talk to that?
    Secretary Esper. Yes, sir. I'll just--I'll speak briefly 
and then maybe let the Chief answer.
    Clearly, the Army has a role in the Pacific, not just in 
terms of land warfare, where it may be necessary, but, I think, 
as we evolve the concept of multidomain operations, it means 
also supporting our sister services, whether it's with the Air 
Force providing, through long-range artillery, cannon support, 
rocket fires, the suppression of enemy air defenses to help 
them with airspace, or it could be with the Navy, to help clear 
sea lines of communication by, again, holding at bay enemy 
forces through, again, long-range fires, whatnot.
    Senator Schatz. General Milley.
    General Milley. Just a little context of--probably the 
three greatest land wars the United States has fought in the 
last 100 years has been in the Pacific--World War II Pacific, 
the Pacific portion of that, and then, obviously, Korea and 
Vietnam. The Army and ground forces, in general--Army and 
Marines--play a very, very significant role in operations in 
the Pacific. And the defense strategy has shifted with the 
priority to the Pacific, the pivot to the Pacific. And I would 
argue that, 100 years from now, some historian looking 
backwards, I would say that the theme or the story of this 
century that we're currently in at the beginning will be the 
story of the United States and China and how we related to each 
other in the Pacific, from a security standpoint. So, I think 
the Army has a very, very fundamental and significant role in 
the Pacific, along with other ground forces--Marines, in 
particular--in assuring our allies that we'll be there and that 
we are a stabilizing force in deterring any aggression from any 
potential enemy.
    Senator Schatz. Thank you.

                            ENERGY ASSURANCE

    Secretary Esper, I want to talk to you a little bit about 
energy assurance, both forward and back home. The different 
service branches have different initiatives around energy 
assurance. And the first thing that I'd like you to talk to is 
what the Army, in particular, is doing around energy assurance. 
Again, the bases and installations back home and then forward. 
But, secondly, I have a broader concern, which is that, to the 
extent that any service branch learns anything in their energy 
assurance research or pilot implementation, I'm not sure what 
the mechanism is for it to be shared across all service 
branches. And I get that your operational needs are different, 
but sometimes you're talking about pretty basic stuff, like 
base power, like fuel. That's not that different across service 
branches. So, if you could answer both of those questions.
    Secretary Esper. Yes, sir. Briefly, and then I may need to 
come back to you with a more robust answer.
    We--energy assurance, efficiency, affordability, 
availability, all that is important to the Army. We have 
metrics on that. And I--I'm faintly aware of the policy we have 
on that, but I'd have to get back to you to give you a more 
fleshed-out account of what that policy is in those specific 
initiatives.
    [The information follows:]

    The Army has long recognized that energy assurance is vital for 
mission success, for both deployed operational assets as well as fixed 
and forward installation requirements. Energy resilience enables Army 
readiness and is a key enabler and force multiplier. Energy resilience 
enables the Army to anticipate, prepare for, and adapt to changing 
conditions and withstand, respond to, and recover rapidly from 
disruptions in the availability of energy and water resources; this is 
Army Energy Security & Sustainability Strategy. The Army encourages all 
installation leadership to incorporate energy resilience planning and 
considerations into infrastructure requirements definition, project 
scoping, and master planning.
    An excellent, innovative example of incorporating energy resilience 
planning is at U.S. Army Garrison Hawaii, on Schofield Barracks. The 
U.S. Army's Office of Energy Initiatives, soon to be renamed the Office 
of Energy Resilience, recently partnered with Hawaiian Electric Co. 
utilizing third party financing to construct and operationalize a new 
50-megawatt electric power production plant that uses a combination of 
biofuels and conventional fuels to provide flexible and efficient power 
generation that increases energy resilience, reliability, and diversity 
to the U.S. Army Garrison-Hawaii and the O`ahu electrical grid. In the 
event of a grid emergency, the facility can directly feed Army 
facilities in Central Oahu, including Schofield Barracks, Wheeler Army 
Airfield, and Field Station Kunia, serving as a back-up power 
capability for all critical and non-critical power needs for 30-days. 
Additionally, this is the only power generation asset located on O`ahu, 
above the Tsunami zone.
    The military services routinely work together to capitalize on each 
other's experiences and abilities. One example is the Army Office of 
Energy Initiatives and Air Force Office of Energy Assurance established 
a formal agreement to share support staff, business processes, and best 
practices to increase energy security and resiliency on installations. 
They are working together and leveraging experiences by streamlining 
processes, reducing costs, and negotiating favorable pricing on goods 
and services, resulting in greater economic benefit and higher 
economies of scale, in finding and developing energy resilience 
improvements on military installations, and utilizing private funding 
and third-party financing where possible.
    All of our efforts support the emphasis placed in Section 2831 of 
the National Defense Authorization Act of 2018, which asks the 
Secretary of Defense to ensure the readiness of the armed forces for 
their military missions by pursuing energy security and energy 
resilience. Further, if the Army learns something new or important in 
our energy assurance efforts, or in research, or study and analysis, we 
collaborate and share the findings across service branches. The 
OASD(EI&E) leads an Energy Resilience Working Group (ERWG), established 
in December 2012, that includes representation from the Defense 
Components who work together to better understand energy resilience 
required to enhance mission assurance on our installations. If a 
service branch learns something new in their energy assurance research 
or pilot implementation, they share the findings across all service 
branches through the ERWG.

    Senator Schatz. Okay. Let's begin a dialogue about this. 
We're, especially in Hawaii, working with the Navy and the Air 
Force in the energy-assurance space. They've had great success, 
and they're now starting to share information. Again, this is 
not science-fair stuff, this is so you can implement right 
away, especially forward, but especially even, when you think 
about Hawaii, which is on the commercial grid, and you've got a 
lot of other bases and installations which depend on commercial 
power. We may have to relook at, say, the MILCON restrictions 
related to outside of the fence, inside of the fence. So, 
there's some work that we need to do to think through our 
energy security, especially back home.

                            PACIFIC PATHWAYS

    And my final question is, Pacific Pathways and what the 
Army is learning through Pacific Pathways, and how important it 
is, in terms of projecting power. And General Milley, you know 
I am a fan of the program, you know the feedback that I get on 
the ground in Hawaii, and even when I'm in Seoul, is that they 
just love how it projects power for relatively little money. 
So, if you could talk to that program.
    General Milley. Pacific Pathways, Senator, is a combination 
of a series of exercises that is important, again, to assure 
our allies and deter our enemies, and it allows us 
interoperability. As you know, within Admiral Harris's Pacific 
area of operations, there's 80,000 U.S. Army soldiers, many 
more that could rapidly deploy to the Pacific with soldiers 
arrayed and participating in Pathways, arrayed out of Alaska, 
Hawaii, Guam, U.S. Force Japan, and of course, on the Peninsula 
Korea. And it's a whole series of exercises that go from 
Southeast Asia, Northeast Asia, and Micronesia. And it's very, 
very important to continue that interoperability, building our 
allies, and assuring our allies while deterring our enemies. 
And ensuring that we continue engagement with our allies is one 
of Secretary Mattis's key National Defense Strategy priorities. 
So, it's very important in that regard.
    Senator Schatz. Thank you, to you both.
    Senator Shelby. Senator Moran.
    Senator Moran. Mr. Chairman, thank you very much.
    Secretary Esper and General Milley, thank you for your 
presence. More importantly, I thank you both for having 
conversations with me. You, Secretary, at the Pentagon. 
General, yesterday in our office. Both of you have visited Fort 
Riley with me. Both of you have been to Fort Leavenworth. And I 
appreciate those--that understanding of our Army's military 
presence in our State.
    And you, General Milley, I want to again publicly now thank 
you for your time you spent with a young Kansan who is 
struggling with his health, a young man named Seth Cummings, 
from Topeka. And you were very gracious and caring about him 
and his future. Thank you very much.

                        MILITARY VALUE ANALYSIS

    I want to talk to the--to you as with--about what you would 
expect. Every time we've had conversations, I've raised the 
issue of Military Value Analysis. I have concerns that the 
Army's stationing process and its objectivity with that 
analysis--I'm not convinced that it's either transparent or 
objective. And we've--my staff and I have been engaged in 
meetings with the Army on this topic each month, monthly since 
January, and a significant number of our questions remain 
unanswered.
    I feel that the Army is prioritizing a near-term cheap-and-
fast solution versus consideration of long-term factors that 
would reduce costs for the Army and the taxpayers over a longer 
period of time. What I have indicated to you is total lifetime 
costs. This includes energy and utility expenses, local 
construction costs, cost of living and housing for soldiers and 
families, and operating costs for the entire installation. When 
you compare installations, when the Army compares 
installations, this long-term cost can translate into 
significant cost savings and cost avoidance.
    Secretary Esper, you previously agreed with me that total 
lifetime costs should be considered in your stationing 
decisions. However, the Military Value Analysis does not do so, 
and I am looking for you to tell me this morning that you not 
only, again, believe it should be, but that it will be.
    Secretary Esper. Yes, sir. Thank you. And by the way, thank 
you for hosting me at Fort Riley. I had a great visit and 
really----
    Senator Moran. Thank you.
    Mr. Esper [continuing]. Appreciate the post and the people 
of the adjacent communities coming out, as well. So, thank you 
for that.
    Yes, following up on our conversation, we are committed to 
looking at, for example, what other services may do with regard 
to their version of MVA (Military Value Analysis). We do have 
a--what we believe is an objective process that looks at a 
number of criteria to make an assessment about a particular 
post or basing decision. And as I talked to the staff following 
our meeting, I asked that we also take a look at the long-term 
cost to make sure that we have a good understanding of what it 
may play out over 20, 30, 40 years to--again, because it's a 
long-term decision. And specifically, we're talking about the 
conversion of an IBCT (Infantry Brigade Combat Teams) to an 
ABCT (Armored Brigade Combat Team). So, we--the Chief and I 
want to get the--going to get the--make the right decision, and 
want to get the right answer. And so, we're committed to doing 
those two things.

                        MVA TRAINING PROCEDURES

    Senator Moran. Chief, you indicated in our--I think in our 
conversation yesterday, you seemed to indicate that 
noncontiguous training area and training area on post should 
not be treated identically, that one has more value than the 
other. Again, the MVA does not treat it that way. And would you 
agree--first of all, would you confirm that you agree that they 
should be treated differently? And would you commit to having 
the MVA include that kind of analysis?
    General Milley. A couple of things. First, on Seth. Thank 
you much for the follow-up. And he's near and dear in all of 
our hearts, and he has our thoughts and prayers with him from--
behalf of the whole Army.
    Senator Moran. Thank you for your humane reaction.
    General Milley. Thanks for bringing that to our attention.
    On the MVA, first, transparency. Both the Secretary and I 
commit to you transparency. So, whatever questions your staff 
asked and haven't been answered, I would ask that, right 
afterwards, you just hand them to me, and I will get you an 
answer within 72 hours on every single question that you have 
unanswered. And that's my commitment to you.
    [The information follows:]

    ``The Army is working directly with Sen. Moran's office to address 
all outstanding questions concerning the Military Value Analysis.''

    General Milley. I wasn't tracking unanswered questions.
    Senator Moran. Thank you, sir.
    General Milley. You specifically asked about contiguous, 
noncontiguous. Within the Military Value Analysis--I'll have to 
look into the actual calculations, but it's my belief that they 
are rated differently. I owe you a confirmed answer, because it 
seems to pass a commonsense test that if the training area is 
contiguous, you have less travel time between your motor pool 
and the training area, you use less fuel, it's less expensive, 
and so on and so forth. That should be an add or a plus in the 
puts and takes of military value analysis, versus a 
noncontiguous training area that may be an hour or two by 
either railhead and/or convoy, which is consuming dollars and 
money and resources.
    So, I believe that they are rated differently, but I might 
be wrong, so I need to get you a confirmed answer, once I take 
a hard look at that. And I'll get you that answer within a day.
    [The information follows:]

    The MVA model objectively assess the training area's attributes, 
such as usable acreage. We are currently reviewing the treatment of 
non-contiguous areas in the model, and will provide the outcome of that 
review when completed. As part of the quantitative analysis, we do look 
at the added cost of using non-contiguous training areas. We can 
confirm that when comparing installations with non-contiguous training 
areas, we will ensure the Army continues to consider the additive cost 
of training there as part of the total lifecycle cost of stationing a 
unit at the installation.

                        QUALITY OF LIFE ANALYSIS

    Senator Moran. The final question--perhaps the final 
question at--assuming the clock doesn't run out, there may be a 
follow-up--but, the analysis of quality of life for soldiers 
and their families, I don't think is comprehensively included 
in the MVA. I want you to consider quality State, local, 
community investments in infrastructure, like housing and 
schools and transportation, tax credits for spouses, local 
incentives for military families, cost-free associate degrees 
for spouses. We say that the Army recruits soldiers, but 
retains families. And again, I want your analysis, as you look 
at this decision about basing locations, to consider how 
expensive it is, how stationing decisions can help in the long-
term health of the Army. And I assume that both of you would 
agree that that will be a factor in that--in those discussions 
and conclusions.
    General Milley. Absolutely.
    Secretary Esper. Yes, sir.
    Senator Moran. Good. Thank you.
    Secretary Esper. I'm assuming we can get the data that we 
can get hard facts, objective data that would be important to 
know.
    Senator Moran. Secretary and Chief, thank you very much for 
taking my interest in this seriously. We'll follow up and make 
certain that what you committed to, Chief, the conversation 
occurs so that we can get the information we've been seeking.
    And what I--my conclusion is that--I want to make sure that 
we have those facts and the analysis in advance of the decision 
being made so that we have an opportunity to have a discussion 
again, should we continue to disagree about the value of the 
MVA. Is that satisfactory with both of you?
    General Milley. Absolutely.
    Secretary Esper. Yes, sir.
    General Milley. Yes.
    Senator Moran. Thank you both.
    Thank you, Mr. Chairman.
    Senator Shelby. Thank you.
    Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    General Milley, good to see you again. Thank you.

                    CAREER LICENSING AND CREDENTIALS

    As we continue to look for ways to improve the transition 
process, one of the most important considerations is helping 
servicemembers get the licenses and credentials that they need 
for careers outside the military. At JBLM (Joint Base Lewis-
McChord), I have seen firsthand how important these programs 
can be for a soldier's future. Those opportunities, also an 
important recruiting tool and I've heard, from Sergeant Major 
Dailey, actually improve retention, as well. With the help of 
Congress, the Army has made great strides in recent years in 
expanding access to these credentialing programs. But, I 
understand the Army believes more needs to be done to allow 
soldiers to benefit from these opportunities. I wanted to ask 
you, what is preventing interested soldiers from taking 
advantage of current programs and opportunities?
    General Milley. Well, first of all, thanks, Senator, for 
the question. And it's--I think it's critical that--you know, 
not everybody stays in the Army for a career, so one of the 
great things I think the Army, but also the Navy, the Air 
Force, Marines, do is, we return to the Nation a quality 
citizen who believes in the values of the country and returns 
to the Nation someone who has certain skills. And one of the 
key initiatives that Sergeant Major of the Army Dailey has 
undertaken and--with a lot of other people--is the 
credentialing. So, we want to make sure that every soldier who 
exits the Army, who wants to, is credentialed in the variety of 
skills that they learned while in the military. And I believe, 
for the most part, soldiers can take advantage of that and get 
credentialed prior to departure.
    Some of the--you asked about impediments--some of the 
impediments are training schedules and deployment rotations. 
And those--the mission always comes first, but we do--180 days 
prior to exiting the Army, we do want to provide the 
opportunity for all those soldiers who want to be credentialed 
to get credentialed.
    Senator Murray. Are you doing anything earlier in their 
career as a soldier, talking to them about how they should be 
aware of these programs when--so when they get to 180 days, 
it's not too late?
    General Milley. We do that through the chain of command, 
through the command sergeant majors and the first sergeants, 
through the career counselors and the reenlistment NCOs (Non-
Commissioned Officers), along with their normal chain of 
command, the company commanders, battalion commanders, is to 
provide situational awareness and understanding of the various 
options and programs that are out there to each soldier.
    Senator Murray. Okay. And I wanted to ask you about 
credentialing oversight, as well. I want to emphasize, I'm 
really supportive of the effort on this, but I have some real 
concerns about making sure we have strong, quality guardrails 
in place. Too many times, we've seen some for-profit 
institutions aggressively prey on our servicemembers or 
veterans and cause them real harm and just get access to their 
benefits. A servicemember may think they're getting a 
credential that will help them, but it turns out to be just a 
piece of paper.
    So, if we expand funding for this and access for these 
programs, what additional steps will you take to make sure 
there is strict oversight of the entities that participate in 
the program?
    General Milley. The oversight that we have currently, and 
the one that I would propose to expand in oversight, is what we 
call Army University, which is led by the commanding general, 
three-star general, lieutenant general, at Fort Leavenworth. 
And that's an initiative to bring together all the different, 
not only officer, but enlisted schools, and they have the lead 
for the credentialing of our soldiers, as well. So, that would 
be the mechanism of the venue by which we would want to expand 
oversight on the credentialing process.
    Senator Murray. Okay. I think we really need to keep track 
of that so we don't end up, down the road, with a bunch of 
people that have--don't have papers worth anything. So, it's 
something I'll be watching.
    General Milley. Great.
    Senator Murray Following.
    General Milley. Thank you, Senator.

                           SPOUSE EMPLOYMENT

    Senator Murray. Secretary Esper, I'm concerned about spouse 
employment. The opportunities for military spouses are often 
rare. And I've heard from a lot of families in my home State of 
Washington. And I don't think we should ever be in a position 
where military spouses can't find work. Or worse, as I've 
heard, they feel they have to hide their military affiliation 
because employers-- private employers won't give them a chance. 
It's not just a DOD issue. But, we need communities and the 
private sector to really step up and meet their part of this 
obligation. I know one part of the issue is uncertainty about 
relocation, but what other barriers--or, more importantly, what 
proposed solutions have you heard from employers, themselves, 
as we talk about this?
    Secretary Esper. Yes, ma'am. I could not agree with you 
more. This is a top priority for me. I've--in the 6 months I've 
been on the job, everywhere I travel I meet with spouses, and 
this issue comes up over and over again. And I will tell you, 
personally, when I was on Active Duty, my wife was 
discriminated against for--in--for work because they knew I was 
rotating. And so, this is personal, as well.
    Currently, it takes around 140 days to hire somebody in the 
services--in the Army, civilian, but particularly spouse. And 
as you right note, many spouses either just want to work or 
they need to work. And so, what we're doing is--it's a three-
pronged problem. It involves the Army, DOD, and then OPM. I'm--
I've got about--at least a half-dozen initiatives right now 
that we're decreasing the timeline, that 140 days, down by 
going with direct hiring authority, by doing--allowing them to 
temporarily work.
    Senator Murray. That's within the military.
    Secretary Esper. Yes, ma'am, within the Army. And then, 
next is some proposed changes to the DOD regulations. But, the 
bigger problem that I cannot deal with is the OPM process it's 
clunky, and it's inefficient, and to the degree that we could 
either reform that or move it to DOD or the--or let the Army 
hire direct, would really give us a greater advantage, in terms 
of reducing that 140-day average down to about 30 days, is what 
it should be. Because what happens is, spouses become 
frustrated, and they give up searching for a job, or they 
become underemployed doing something that doesn't fit their 
skills or their credentials, let alone their aspirations.
    Senator Murray. Yes. And there's not enough jobs on bases, 
either. So, a lot of the spouses I talk to are looking outside 
the base, and that's where private employers don't return their 
calls.
    Secretary Esper. Yes, ma'am. That's also where Congress has 
helped, I think, with Federal credentialing, so that if you 
have a CPA or a teacher's license, it's recognized by the State 
to which you are moving. Helps greatly, as well. So you don't 
have to go through a recertification process every time you 
move.
    Senator Murray. Okay. Well, I'm looking at ways that we can 
engage the private sector to have them become more responsible 
citizens. I had one spouse tell me that she sent out a number 
of resumes, didn't hear anything back, so she sent to the same 
people and didn't put on a military spouse affiliation on her 
resume, and heard back. That's just wrong. So----
    Secretary Esper. I couldn't agree more.
    Senator Murray. Yes. So, we need to--I think we really need 
to look at the--with the private sector, too. And look forward 
to working with you on that.
    Secretary Esper. Yes, ma'am.

                   ARMY FUTURES COMMAND HEADQUARTERS

    Senator Murray. And, Secretary Esper, while you're here, I 
just wanted to say, as you go through your process to decide 
the location for the new Army Futures Command Headquarters, I 
just want to remind you that the Seattle area has a large joint 
military presence. We have world-class universities, cutting-
edge businesses. They want to work with you. So, there's no 
doubt from me the Seattle area is a great place to look, and I 
appreciate your consideration.
    Secretary Esper. Will do. Thank you, ma'am.
    Senator Murray. Thank you.
    Senator Shelby. Senator Daines.
    Senator Daines. Chairman Shelby, thank you.
    Gentlemen, thank you for appearing before this committee 
this morning.
    Montana's the proud home of nearly 2,600 Army National 
Guard and 700 Army Reserve citizen soldiers who have carried 
our Nation's flag literally all over the world. In particular, 
I want to recognize those soldiers from the 1st 189th General 
Aviation Support Battalion of Helena who are currently forward 
deployed, providing medical evacuation support to operations in 
Southwest Asia. We certainly look forward to welcoming these 
heroes home soon.
    Following our discussion last year on the readiness gaps in 
our force, I am pleased to hear that we've made progress and 
the Army is better positioned to ``fight tonight.'' As the 
service focuses more of its efforts toward modernization, I 
want to ensure that the resources Congress provides will 
strengthen the total force.

        WHEN WILL NATIONAL GUARD SEE TANK EQUIPMENT IMPROVEMENTS

    General Milley, I am glad to see that your budget request 
will provide active protection systems for a full brigade's 
worth of tanks. My question is, when will tank units in the 
National Guard, such as the Charlie Company of the 163rd in 
Great Falls, see those same improvements?
    General Milley. So, what we did was--first of all, active 
protective systems are manufactured only in two countries--
actually, three right now, the third being the United States-- 
but Russia, which we're not going to get them from, Israel, and 
the United States. And the companies in the United States, 
they're not ready yet for full rate of production. So, we 
determined that we had a need for active protection systems, 
and we wanted to prioritize those in our early-deploying first-
responder sort of units. So, we picked four brigades-- heavy 
brigades--to purchase those systems for. We have not yet worked 
out the schedule, but the intent, once the U.S. companies come 
online with the full system, the intent is to outfit the entire 
heavy force, all of our vehicles, all the ground vehicles, the 
Bradleys, the tanks, any future combat vehicles, with active 
protective systems, but also with some aircraft. We haven't 
worked out the aircraft piece. We don't yet have a schedule for 
the Guard or the rest of the regular Army, but our intent is to 
outfit the total force, the total Army, with active protective 
systems in the years ahead.
    Senator Daines. Yes. I'm very glad to hear that. You 
mentioned the Bradleys, General. Regarding active protection 
systems, do you have any sense of when the Bradley fighting 
vehicle might begin fielding that technology?
    General Milley. We're hoping to do that, here, in the next 
24 months. The issue is adapting--these systems were built for 
country-specific vehicles, so we're taking these systems and 
we're adapting them right now, as we speak, to our vehicles. 
And there's some testing and prototyping and safety testing 
that has to be done with these before they are ready for 
operational use in the four brigades that we selected. But, we 
hope to have that done within 24 months.
    Senator Daines. Thank you, General.
    As the DOD continues maturing its cyber mission forces, the 
Army has taken a leading role in both training as well as 
operations. Earlier this month, one of the Army's top officers, 
in fact, was chosen to lead our Nation's premier cyberspace 
operations activities, U.S. Cyber Command. Last year, Congress 
provided several new authorities and additional resources to 
continue growing a robust cyberspace capability.

                           CYBERSPACE DEFENSE

    General Milley, could you provide an update on the status 
of the Army's effort in cyberspace, and specifically how it is 
leveraging the total force to defend against the full range of 
threats that are facing our Nation?
    General Milley. Absolutely. The--what the Army did a few 
years ago, and what we continue to do, is build out the force 
structure within Army cyber, which is the component command of 
CYBERCOM, which you just noted. General Nakasone most recently 
took command of, and we're very proud of his efforts. So, what 
we have is 62 total teams, cyber protection teams, as they're 
called; 41 of those are Active component, 11 in the Guard, and 
10, I think, is in the Reserve. My thought or my estimate at 
this time is that this is sort of a growth-industry kind of 
thing. I expect that, in the out years, we're going to 
increase, not decrease, the number of cyber warriors that are 
required.
    So, one is the force structure, the cyber protection team. 
Second is the Cyber Center of Excellence that we have 
established. Third is, we've established it as a branch for 
commissioning for lieutenants coming into to the Army, and they 
can go into the traditional branches of infantry, armored 
cavalry, and aviation, but they can--now can also have the 
choice of going into cyber. We've essentially normalized cyber 
as a domain within the force structure, the career development, 
the talent management, and the professional development of our 
officers, noncommissioned officers, and junior soldiers. It's a 
very important initiative. There's space operations, there's 
cyber domain--space domain, cyber domain, maritime, air, and 
ground. Cyber is relatively new, and it's a critical component, 
both on the offense and the defense, relative to any adversary. 
As the National Defense Strategy talks about great-power 
competition with China, Russia specifically mentioned, those 
two countries amongst many others--North Korea, Iran, and 
others--have very significant cyber capabilities. So, this is 
not only critical to the Army, it's critical to the Nation to 
have a very, very capable cyber force. And we intend to be part 
of that.
    Senator Daines. General Milley, thank you for that very 
thorough answer. It's appreciated. I think the asymmetric 
threats that we face certainly will be the fight our kids and 
grandkids will be taking, here, as we look at the threats 
around the world.
    The last question, while the budget deal reached in 2017 
was positive for national defense, it was shortsighted, in that 
it once again deferred savings mandated by the Budget Control 
Act. Some within the Department have noted that Congress's 
repeated deferments may pose a substantial risk to 
modernization in the next 1 to 2 years.

                  ADDRESSING MODERNIZATION SHORTFALLS

    Secretary Esper, given Congress's track record on 
delivering stable, predictable funding, how is the Department 
planning to overcome modernization shortfalls beyond fiscal 
year 2019?
    Secretary Esper. Yes, sir. A great question. First of all, 
thanks for the funding in 2017 and 2018, in particular, and if 
the budget agreement holds for 2019, as well. I will tell that 
you--for example, continuing resolutions are very harmful to 
our readiness. It impacts us because you're not allowed to do 
new starts and additional production. So, it's--it is very 
harmful, in terms of what we've seen in the past years, and has 
affected us, in terms of our readiness, and has prevented us, 
in many ways, in terms of modernizing.
    That said, there's obvious uncertainty with regard to 
fiscal year 2020 and beyond. And so, that--so, the Chief and I 
are undertaking a number of reform initiatives within the 
service by which we look to free up time, money, and manpower 
to gain a little bit more control over our own destiny if those 
dollars don't continue on a healthy pace. And--because what we 
need to do is to put those dollars into our six modernization 
priorities to make that transition to the next generation of 
long-range fires, of combat vehicles, of future vertical lift. 
If we don't do that, we'll find ourselves further behind and 
not able to achieve that overmatch we need in the future, as 
called for by the National Defense Strategy.
    Senator Daines. Thank you, Secretary. And I'm grateful for 
Chairman Shelby's leadership, as he, I know, will be working 
hard to bring together bipartisan cooperation to get out of 
this, frankly, nonsense of CRs. Sometimes I wonder if perhaps 
we ought to have members down there on the witness table, and 
have the men and women who wear the uniform behind the dais, 
questioning us around why we can't get the job done up here on 
Capitol Hill.
    Thank you.
    Secretary Esper. Thank you, sir.
    Senator Shelby. Senator Udall.
    Senator Udall. Thank you, Senator--Chairman Shelby.
    And let me just say, I think there's good bipartisan 
support, and Senator Shelby's trying to proceed in the 
direction so we don't have any more of these CRs and we do our 
bills on time. And that's what we're working towards.
    Thank you both for your service. I had a very good visit 
yesterday with General Milley. You've got a very thoughtful 
Chief of Staff there, Mr. Secretary. He's thought about a lot 
of the big issues, I think, over the years. So, it's a--he's a 
good one to have, I think.
    Secretary Esper. Yes, sir.

                       WHITE SANDS MISSILE RANGE

    Senator Udall. I wanted to talk a little bit about White 
Sands Missile Range. It's the largest overland military 
installation in the country. It's larger than the State of 
Rhode Island. While it's primarily an Army post, it also 
provides support for all the military branches, as you all 
know. Yet, it is currently an Army post with a relatively 
nonexistent Army presence because the engineering battalion 
that previously made it home cased their colors and left the 
base. They left behind empty barracks and other facilities, 
such as 17,750-square-foot headquarters building with 23 
offices, six company headquarters, and one 65,000-square-foot 
building, battalion-level dining room, a vehicle maintenance 
shop, and one parade field, and a segregated parking lot.
    Mr. Secretary, you've stated that an important part of the 
Army's effort to maintain the readiness of the Army's BCTs for 
major combat operations is the security force assistance 
brigade, or the SFAB, and you've requested congressional 
support to man, train, and equip six SFABs, five in the regular 
Army and one in the Army National Guard. Can you provide an 
update on the Army's request to consider White Sands Missile 
Range as a basing location for a security force assistance 
brigade?
    Secretary Esper. Yes, sir. As you noted, we plan on 
fielding six SFABs, five in the Active component; two already 
exist, one at Fort Benning, one in Fort Bragg, and we will make 
a decision very soon on the remaining three. And we use a 
process by which to do that called the Military Value Analysis 
Model with regard to looking at objective criteria by which we 
would make that decision, with some other criteria as well, 
given that the SFABs are unique.
    But, I will tell you that I had a chance to visit White 
Sands a couple of months ago. I had a very good visit, had a 
chance to not only talk to the folks about their mission there 
with regard to testing, but to also take a look around those 
facilities that you described. And they are very good 
facilities. And it brought to mind the importance of keeping 
that in mind as we consider not just SFABs, but anything else 
out there in the Army, because it is space that is available.
    So, again, we'll make a decision, here, fairly soon with 
regard to the basing of these SFABs, the locations.
    Senator Udall. Great. And thank you very much. And I hope 
the Army puts these facilities to good use and finds a mission 
at White Sands soon.
    How will increased emphasis on research and development in 
the overall budget impact White Sands Missile Range? Do you 
envision an increase in tasks or other activities at the range? 
How does the Army intend to keep the range's facilities up to 
date and in good working order to facilitate R&D, defense wide?
    Secretary Esper. Senator, I will tell that the six 
modernization priorities, what comes to mind immediately are, 
number one, which is long-range precision fires, and then 
probably our other one, which is air missile defenses.
    Certainly, on the first one, we'll demand a lot of testing. 
One of the strategic systems we hope to build is a cannon that 
can shoot hundreds of miles, either with a traditional type of 
round or a hypersonic. And I imagine--I'm speculating right 
now--that White Sands would be the place where we would do a 
good deal of that testing. The same would be true as we 
continue to develop air missile defense platforms that can be-- 
that are mobile, that can keep up with our maneuver forces.
    Senator Udall. General Milley, did you have any----
    General Milley. Yes, exactly. The Secretary had it. Long-
range precision fires, there's also opportunities for--to do 
some of the range firing for future vertical lift, when that 
comes online. And then ballistic missile defense.
    As you're aware, Senator, you know, the combination of Fort 
Bliss and its adjacent White Sands Missile Range, that's the 
largest training area for military forces in the world. And you 
can fire every ordnance in the United States inventory, short 
of nuclear weapons, at that facility. So, it's a great 
facility, it's a great testing ground, and we will maximize its 
use as we develop our modernization program and those pieces of 
equipment and kick it into the testing phase.
    Senator Udall. Yes. Thank you for that answer.
    The Air Force and the Navy are both looking at how the 
proliferation of new technologies will impact their dominance 
in the air and sea, respectively, especially regarding 
artificial intelligence. How is the Army addressing artificial 
intelligence? How will AI change how the Army does business or 
impact the balance of power if, for example, China acquires AI 
technologies first? And address it to either one of you.
    General Milley. I've mentioned and have spoken several 
times on the changing character of war. And that can be driven 
by a variety of things--demographics, social change, doctrines, 
et cetera. But, technology is often one of those things that 
drives changing character of war and how armies fight.
    And I've used the term ``the mother of all technologies'' 
in referring to artificial intelligence. We are investing--we, 
the Army, are investing monies into artificial intelligence, as 
well as the Navy and Air Forces, along with the broader DOD. 
It's a critical technology that has a lot of moral, ethical, 
and legal implications that need to be thought through. But, 
the artificial intelligence, in combination with robotics, 
could represent a very, very, very fundamental change in the 
conduct of warfare. And I believe--my estimation is that those 
technologies are likely to see widespread use by military 
forces in the not-too-distant future, defined as 10, 15, 20 
years, something like that. Some technologists would argue that 
it's much closer in time, others would say much further in 
time. But, my personal estimation, it's in that range--10, 15, 
20 years, we're going to see widespread use of artificial 
intelligence, machine learning, in combination with robotics on 
the battlefields of the future.
    Senator Udall. Great.
    Secretary Esper. Senator, I would just add it's----
    Senator Udall. Oh, please.
    Secretary Esper. Part of our modernization strategy that we 
sent up a couple of weeks back speaks to the vision of fielding 
our future combat vehicles, our next generation of combat 
vehicles that are either fully autonomous, semi-autonomous, or 
fully manned, as they are now. And what does is give us a--
could give us a lot greater capabilities, flexibility on the 
battlefield, it could leave our--make our soldiers less 
vulnerable, depending on how you employ them. They could speed 
the--our decisionmaking. So, there is a great deal of promise, 
as the Chief has outlined, and it could--the character of 
warfare.
    Senator Udall. Great. We really appreciate those answers. 
And I know Senator--my Chairman is here, so I'm going to submit 
the rest of my questions for the record.
    Thank you.
    Senator Shelby. Thank you, Senator Udall.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    And gentlemen, thank you for being here. Thank you for your 
leadership.

                            ARCTIC TRAINING

    I want to talk about training in the Arctic. We've had an 
opportunity for a conversation on this. And General Milley, 
you're certainly familiar with Alaska's advantages to the Army. 
Secretary Esper, hopefully we'll have the opportunity to 
showcase some of what we have going on up there what--within 
the Joint Pacific Alaska Range Complex and the Northern Warfare 
Training Center, two really strong Arctic training assets that 
are critical to our national security, particularly as we're 
seeing more emphasis being placed within the region.
    Can you--and this is to both of you, if you would--speak to 
whether or not the Army is planning to do more, when it comes 
to taking advantage of the cold-weather training and the 
training assets that we have in the north, and perhaps 
expanding on that, given that we have a little more budget 
certainty out there, any interest in growth in the Army 
presence, insofar as improvements in facilities or capabilities 
in Alaska?
    General Milley. Well, I think, Senator, the biggest and 
most significant change we've witnessed in the last 24 months 
was the stabilization of 4th Brigade 25th Division, and keeping 
it in Alaska, which is a recognition, I think, of the strategic 
importance of the Arctic and some of the challenges that are 
being posed in the Arctic by both Russia and now China, as 
well. So, Alaska and the U.S. Army forces and broadly speaking, 
the U.S. military forces are a strategic component of our 
overall global campaigns, and it's very, very important to us.
    As far as the Northern Warfare Training Center, Senator 
Leahy asked, earlier, a question about the Vermont Mountain 
School. You know, we teach--in the U.S. military, there's three 
mountain schools. One is run by the Marines, in California. The 
other one, up in Alaska, at the Northern Warfare Training 
Center. And the other one, in Vermont. All three are critical, 
all three emphasize not only mountain warfare, but cold-weather 
training and survival. We are suboptimized, as an Army, to 
fight in the mountains and in the jungles. We're optimized to 
fight in deserts and generally open, rolling terrain. As we go 
forward into the future, we'll probably have to optimize for 
highly dense urban areas, and we will continue having to have--
retain the capabilities of operating in cold weather, northern 
climates, Arctic conditions, and mountain warfare, as well as 
jungles and deserts. So, we will continue to invest and 
continue to have units train at the Northern Warfare Training 
Center. And we appreciate the support of you and the entire 
congressional delegation for that effort up there.
    Senator Murkowski. Thank you for that.
    Secretary.
    Secretary Esper. Senator, I would just add that I am 
planning a trip up there this summer to meet with the forces, 
to visit the training area, and of course, you know, talk to 
folks at the garrisons up there. So, I'm anxious to see--to 
visit the training area and see how we can maximize its 
utilization.
    Senator Murkowski. Yes. I think you get a little better 
taste of it if you go up in the winter, but we will take you at 
any time and----
    Secretary Esper. I'll put that down for a future trip.
    Senator Murkowski. Yes, yes, yes. No, I appreciate that.

                ARMY INSTALLATION--SEXUAL ASSAULT CASES

    Let me change the conversation, here, to something that, 
unfortunately, we don't want to talk about but we have to 
address, and that is the issue of sexual assault. And a couple 
of things. There was a media report, just very recently, 
regarding a spate of a--child-on-child sexual assaults at our 
Army installations. And initially, the Criminal Investigation 
Command released a list of 223 juvenile cases worldwide, 
beginning since 2007. We didn't see any in Alaska. But, then 
State authorities tallied five at Alaska Army installations, 
and then, after a challenge of the Army's data, the 
investigators released a total of eight cases at Alaska 
installations, five of them reportedly at Fort Wainwright. So, 
of course, this certainly gets your attention, here.
    So, Secretary Esper, before I ask you about the status of 
the investigations, which you may or may not be able to 
discuss, I just want you to know how alarmed we--you're always 
alarmed when there's any issues as they relate to sexual abuse, 
but, again, when you recognize that we're talking about 
children, here--so, the question is what steps the Army is 
doing to prevent and deter these sorts of incidents, making 
sure that the investigations are conducted with a timely 
manner. And then, I'd also--well, why don't you go ahead and 
address that----
    Secretary Esper. Yes, ma'am. I--it's troubling for both of 
us when we--when you hear about these things, when we've heard 
about it, not just as parents, but also as parents of kids who 
were in the military. Mine, for a brief while. And the Chief's, 
obviously, for longer. But, it's very troubling. And there's 
going to be no toleration for that type of activity.
    You know, we need to get accurate reports, data to 
understand what's been substantiated, what's alleged, what's 
been investigated but not found, and we'll work through that. 
But, the challenge is--as my legal folks tell me--is, we do not 
have the authority to prosecute that once we investigate it by 
the CID. So, in most cases, what happens is, the Army Criminal 
Investigation Division, our--if we have sexual assault experts, 
will immediately investigate, we will provide services for the 
victims, we will provide help for the family. But, we also 
refer the case, depending on the agreements, to local, State, 
or Federal authorities to involve them early on in the process, 
but also local agencies, as well, to help with the victims, as 
case may be, because our first priority is them.
    The challenge once we investigate--and sometimes we 
investigate, and sometime local authorities investigate--what 
we then have to do is hand that off to others for prosecution. 
We have some authority, but it's mainly administrative. So, 
what we can do is, we could bar that kid from being on post, or 
we could remove the family from the post. But, beyond that, the 
authorities really reside outside the military to do that. And 
I think that's something we need to take a look at.
    Senator Murkowski. Well, that's interesting and I think, 
important to recognize. And then, when you put that into 
context--and this was going to be the second question that I 
had for you--is--there are--there's good work that is going on, 
on the initiatives to look further into sexual harassment and 
assault prevention. We are seeing numbers go up. We don't know 
if it's more incidents or better reporting. But, the need for 
victim services clearly is rising. And it's my understanding 
that right now we have 52 special victims' counsel in the Army. 
Last year there were 2,706 victims reported in the Army, an 
average of 52 victims for counsel. It's recommended that you 
not have--that a special victims' counsel handle no more than 
25 concurrent cases. So, you know, we've got an issue, here, 
that you have raised with--very specific to the jurisdictional 
aspect, but it would seem to me that we need to look to 
bringing on more that can help on the victims' side with these 
special victims' counsels.
    Secretary Esper. Yes, ma'am. I'll take a look at those 
numbers. We do need to make sure we have adequate support, 
whether it's counsels or advocates or prosecutors, to make sure 
that we are fully covered to deal with the problem. It's--
again, there's zero tolerance for that in the service, and it's 
fratricide when it happens between soldiers, and there's--
again, we're pursuing a number of initiatives to make sure we 
can tamp that down and get rid of it from the ranks, because it 
just does not help with the readiness, it does not help with 
our soldiers. So, we're looking at a number of things to do, to 
do better in that regard.
    Senator Murkowski. Appreciate that.
    Thank you, Mr. Chairman.
    Senator Shelby. Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman.

                              IRAN THREAT

    General Milley, I agree with you about the threat posed by 
Iran's malign regional behavior, including its development of 
advanced ballistic missiles and support for insurgent groups, 
terrorist organizations, and rogue regimes, like Assad's, in 
Syria. In short, Iran poses a diverse problem set for the U.S. 
military. Does this get more challenging--in other words, more 
dangerous to the United States and our allies--if Iran acquires 
a nuclear weapon?
    General Milley. I think there's no question that, if Iran 
had a nuclear weapon, it would be much more challenging than it 
currently is. Although I don't want to underplay or downplay 
how challenging Iran already is.
    Senator Baldwin. Right.
    General Milley. And you've cited the many, many reasons. 
But, yes, if Iran had a nuclear weapon that would not be good.
    Senator Baldwin. I agree. And note that, under the Joint 
Comprehensive Plan of Action, U.S. military and intelligence 
leaders consistently concluded that Iran was complying with its 
obligations to stop and to dismantle its nuclear program. In 
fact, in July of last year, General Dunford said, ``Militarily, 
the JCPOA remains the most durable means of preventing Iran 
from acquiring a nuclear weapons capability. If the United 
States scraps the deal, Iran could respond by restarting its 
quest for nuclear weapons.''
    General Milley, do you believe that Iran is more or less 
likely to restart its nuclear program now that the United 
States has pulled out from the deal?
    General Milley. Senator, I appreciate the question. I would 
like to refrain from speculation at this point, in open 
hearing. I'd--happy to give you a classified view of what my 
thoughts are and what the intelligence community is telling us 
now, if I could.
    Senator Baldwin. Well, let me try another.
    General Milley. Right.
    Senator Baldwin. At the--final follow-up on this--last 
week, Secretary Mattis told me that the decision to walk away 
from the agreement was the result of rigorous interagency 
debate. Did you provide your military advice as part of this 
debate? And was that advice to pull out of the agreement?
    General Milley. As a member of the Joint Chiefs of Staff, 
we have frequent meetings on a wide variety of topics. And as a 
matter of routine, our best military advice is provided by our 
spokesman, the Chairman of the Joint Chiefs of Staff, in the 
interagency process.
    Senator Baldwin. Well, I would be interested in following 
up on a conversation if it needs to be in a classified setting.
    Secretary Esper, as we discussed in my office, I'm 
concerned by low levels of funding in the Army's future budget 
plans for the modernization of medium and heavy trucks like the 
FMTV, the PLS, and the HEMTT, despite known requirements across 
the Active, Reserve, and Guard. This doesn't seem to support 
the Army's modernization strategy or its readiness needs. And 
the volatility in funding can exert significant pressure on the 
industrial base. The industrial base relies on long-term 
agreements with hundreds of suppliers for specialized parts, as 
you well know. What can you tell me about the Army's tactical 
wheeled vehicle modernization strategy, including how the Army 
will ensure that its funding requests meet its requirements?
    Secretary Esper. Yes, ma'am. I do owe you a more detailed 
report on those specific systems. On one of them, PLS, the 
initial report was that, for the next year or so, we have met 
the requirements. But, backing up a little bit more broadly, I 
would say--and we discussed this some--you know, the JLTV, for 
example, has moved through testing. We'll probably consider a 
production--full-rate production or--decision later this year, 
in terms of that, between us and the Marine Corps.
    But, again, it's all couched in terms of the six 
modernization priorities that we've teased out, beginning with 
long-range precision fires all the way through soldier 
lethality. And we have to fill those buckets first, and then we 
look at everything else on the table. But, clearly, we need to 
have the means by which to move soldiers around the 
battlefield, or supplies, whatever the case may be.
    So, I owe you a more detailed answer on the specific 
systems that you've asked about.
    [The information follows:]

    The tactical wheeled vehicle (TWV) modernization strategy procures 
new and recapitalizes existing vehicles. The Joint Light Tactical 
Vehicle, one of the Army's largest procurement programs, is the 
centerpiece of the TWV modernization strategy, but new procurement also 
includes High Mobility Multipurpose Wheeled Vehicle ambulances, Family 
of Medium Tactical Vehicles, trailers, and vehicle armor kits. 
Recapitalization of tactical wheeled vehicles, such as the Palletized 
Load System and the Heavy Expanded Mobility Tactical Truck, also 
continues at Army depots. In terms of resourcing TWV modernization, the 
Army is focused today on readiness and our six Modernization 
priorities. The Army plans to procure as many tactical wheeled vehicles 
as necessary to ensure an appropriate level of modernization continues 
and operational requirements are met.

                         ENVIRONMENTAL CLEANUP

    Senator Baldwin. Okay. I'll look forward to that.
    Secretary Esper, we also discussed, at our meeting last 
week, the former Badger Army Ammunition Plant in Wisconsin, 
which was once the largest ammunition plant in the world. After 
20 years, we've finally made progress in cleaning up much of 
the land and returning it to local control. But, a few years 
ago, I was alarmed by the Army's reversal of previously 
approved plans to construct and operate municipal drinking 
water system as part of its groundwater cleanup remedy. And I 
was disappointed in the Army's lack of transparency and public 
communication.
    Now, the Army is currently conducting a human health risk 
assessment before moving forward with a new remediation plan, 
and has significantly improved relations with local 
stakeholders. I want to urge you to continue to incorporate 
local concerns and preferred remedies into the ultimate cleanup 
plan. And you may know that directive report language to that 
effect was included in the fiscal year 2018 omnibus bill. So, I 
would like your commitment that the Army will comply with that 
language and uphold its responsibility for full environmental 
remediation at the site, including the provision of safe 
drinking water.
    Secretary Esper. Yes, ma'am. I--as I told you privately, we 
will certainly look into that and do the right thing, here, 
with regard to the water contamination issue that you've talked 
about.
    Senator Baldwin. Thank you.
    Thank you, Mr. Chairman.
    Senator Shelby. We appreciate both of yours appearance 
before the committee today, your willingness to answer all 
these questions.

                   ADDITIONAL SUBCOMMITTEE QUESTIONS

    I will have a number of written questions to submit for the 
record. Other people will, too, Mr. Secretary, probably. And 
we'd ask you to respond to them within 30 days.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Question Submitted to Hon. Mark T. Esper
             Question Submitted by Senator Patrick J. Leahy
                          humvee modernization
    Question. Secretary Esper, in the course of the hearing you and 
General Milley addressed some of the Army's interest in remotely 
controlled or autonomous vehicles as an example of one area of Humvee 
improvement. Please describe any benefits to the force to fielding more 
efficient power management systems, advanced torque monitoring systems, 
and vehicle health monitoring for the Humvee.
    Answer. In its current configuration, the High Mobility 
Multipurpose Wheeled Vehicle (HMMWV) no longer meets the original 
performance requirements due in part to the weight of adding armor, and 
it is incapable of incorporating autonomous technologies. Incorporating 
more efficient power management systems, advanced torque monitoring 
systems, and vehicle health monitoring in future HMMWV recapitalization 
efforts would be necessary to restore original performance 
characteristics and allow for the incorporation of others technologies 
which enable autonomous operations.
    As specific examples, efficient power management systems and 
advanced torque management would increase vehicle safety and allow a 
HMMWV to carry higher payloads efficiently, while detecting and 
reacting to traction loss and rollover conditions during both manned 
and autonomous operations. Effective vehicle health monitoring is vital 
in autonomous systems where operators are not physically present to 
observe warnings or detect physical signs of imminent failure. The 
Joint Light Tactical Vehicle includes these technologies.
    Currently, the Army is exploring options (that may include some or 
all of these technologies) for modernizing the HMMWV fleet and will 
make a decision later this year on the feasibility and affordability of 
a HMMWV recapitalization program.

                          SUBCOMMITTEE RECESS

    Senator Shelby. The Defense Subcommittee will reconvene on 
Thursday, May the 17th, at 10:00 a.m., to receive testimony 
from the Air Force.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 11:41 a.m., Tuesday, May 15, the 
subcommittee was recessed, to reconvene at 10:00 a.m., 
Thursday, May 17.]
</pre></body></html>
